<html>
<title> - NOMINATIONS OF MOLLY O'NEILL AND DALE KLEIN</title>
<body><pre>[Senate Hearing 109-1036]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 109-1036
 
                    NOMINATIONS OF MOLLY O'NEILL AND
                               DALE KLEIN

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

  THE NOMINATIONS OF MOLLY O'NEILL, TO BE AN ASSISTANT ADMINISTRATOR, 
U.S. ENVIRONMENTAL PROTECTION AGENCY AND DALE KLEIN, TO BE A MEMBER OF 
                   THE NUCLEAR REGULATORY COMMISSION

                               __________

                              MAY 17, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



                   U.S. GOVERNMENT PRINTING OFFICE
42-278 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                                                   Page

                              MAY 17, 2006
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    11
Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     8
Obama, Hon. Barack, U.S. Senator from the State of Illinois......    10
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     8

                               WITNESSES

Klein, Dale, nominated to be a member of the Nuclear Regulatory 
  Commission.....................................................    15
    Committee questionnaire......................................    59
    Prepared statement...........................................    55
    Responses to additional questions from:
        Senator Boxer............................................    57
        Senator Jeffords.........................................    55
        Senator Obama............................................    57
        Senator Voinovich........................................    56
O'Neill, Molly, nominated to be an Assistant Administrator, 
  Environmental Protection Agency................................    13
    Committee questionnaire......................................    39
    Prepared statement...........................................    24
    Responses to additional questions from:
        Senator Jeffords.........................................    25
        Senator Obama............................................    37
        Senator Thune............................................    36

                          ADDITIONAL MATERIAL

Letter, Mary Alice Baish, associate Washington affairs 
  representative, American Association of Law Libraries; Emily 
  Sheketoff, executive director, American Library Association, 
  Washington Office; Douglas Newcomb, CAE, chief policy officer, 
  Special Library Association....................................   100
Review, Business Case for Information Services: EPA's Regional 
  Libraries and Centers, January 2004 I6085-102..................


                   NOMINATIONS OF MOLLY O'NEILL AND 
                               DALE KLEIN

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
628, Senate Dirksen Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Warner, Voinovich, Jeffords, 
Carper, Clinton, Lautenberg, and Obama. Also present: Senator 
Hutchison.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. We are going to go ahead. We have a policy 
here that no other committee has, and that is we start on time. 
I don't care even if you don't show up; we are going to start 
without you.
    [Laughter.]
    Senator Inhofe. Today we will be conducting a hearing to 
consider two highly qualified nominees: Molly O'Neill to be 
Assistant Administrator at the EPA for Environmental 
Information and Dr. Dale Klein to be a member of the Nuclear 
Regulatory Commission. Molly O'Neill comes before the committee 
having served as the State Director of the National 
Environmental Information Network for the Environmental Council 
of States. She certainly understands what EPA's Office of 
Information is all about, and she will be able to hit the 
ground running.
    I would like to applaud the EPA's recent efforts to find 
ways to reduce the compliance burden associated with the Toxic 
Releases Inventory, or the TRI. Last fall, the EPA proposed 
allowing certain TRI reporters to use the shorter TRI form. 
This move would save an estimated 165,000 hours of burden each 
year, while retaining 99 percent of the current long form data 
at the national level. This is the type of streamlining the 
Agency should consider, and I encourage you, Molly, to do that.
    Dale Klein has been nominated to be a member of the Nuclear 
Regulatory Commission and the President has announced his 
intention to designate Dr. Klein as Chairman of the NRC. Dr. 
Klein is currently assistant to the Secretary of Defense for 
Nuclear, Chemical and Biological Defense Programs. Dr. Klein 
has significant experience in the nuclear world; he is a 
tenured professor at the University of Texas, where he has 
worked in its nuclear program for nearly 30 years, and has 
served on the Texas Radiation Advisory Board.
    He has been a regulator; he has been part of the regulated 
community, where he oversaw the licensing of a university 
nuclear reactor. I think that is very important; not just to 
have the experience as a regulator, but also experience as a 
regulated. I went through that myself for 30 years in the 
private sector, and that is what drove me to Washington.
    I have to say this, Dr. Klein.
    [Laughter.]
    Senator Inhofe. In 1998, as Chairman of the Nuclear 
Subcommittee, I began a series of hearings. Prior to that time, 
I was Chairman of the Subcommittee on Clean Air. We had not had 
a hearing on the NRC for 12 years. I don't care what the 
bureaucracy is, if you go without a hearing for a period of 
time, it gets out of hand. We did that and they were very 
cooperative, and we totally changed that and streamlined it and 
had some very positive results.
    We need to confirm the Nuclear Regulatory Commission when 
the committee votes for Dr. Klein's confirmation. We also 
include on the agenda both Commissioners Lyons and Jaczko. So 
that will fill the committee, and that is what we want, to have 
a full committee.
    So I want to thank the nominees for coming.
    [The prepared statement of Senator Inhofe follows:]
Statement of Hon. James Inhofe, U.S. Senator from the State of Oklahoma
    Today we will be conducting a hearing to consider two highly 
qualified nominees: Molly O'Neill to be the Assistant Administrator at 
EPA for Environmental Information, and Dr. Dale Klein to be a member of 
the Nuclear Regulatory Commission.
    Molly O'Neill comes before the committee having served as the State 
Director of the National Environmental Information Network for the 
Environmental Council of the States. She certainly understands what 
EPA's Office of Information is all about and she will be able to hit 
the ground running.
    I would like to applaud the EPA's recent efforts to find ways to 
reduce the compliance burden associated with the Toxic Release 
Inventory, or TRI. Last fall, EPA proposed allowing certain TRI 
reporters to use the shorter TRI Form. This move would save an 
estimated 165,000 hours of burden each year while retaining 99 percent 
of current long form data at a national level. This is the type of 
streamlining the Agency should consider and I encourage you, Ms. 
O'Neill, to continue to look for other areas where you can create 
efficiencies and reduce burdens while maintaining environmental 
protection.
    Dale Klein has been nominated to be a member of the Nuclear 
Regulatory Commission and the President has announced his intention to 
designate Dr. Klein as Chairman of the NRC. Dr. Klein is currently the 
Assistant to the Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs. Dr. Klein has significant experience in 
the nuclear world. He is a tenured professor at the University of Texas 
where he has worked in its nuclear program for nearly 30 years and has 
served on the Texas Radiation Advisory Board. He has been a regulator; 
he has been part of the regulated community where he oversaw the 
licensing of a university nuclear reactor; and he has managed a large 
Federal Government office with enormous responsibilities. He is the 
perfect fit to be Chairman of the NRC.
    In 1998, as Chairman of the Nuclear Subcommittee, I began a series 
of oversight hearings of the NRC. The hearing I held in 1998 was the 
first held by this committee in years. When I began conducting 
oversight of the NRC, I did so with the goal of changing the 
bureaucratic atmosphere at the NRC. By 1998, the NRC had become an 
Agency of process, not results. If the Agency was to improve it had to 
employ a more results-oriented approach--one that was risk-based and 
science-based. I am pleased that in the last 8 years, we have seen 
tremendous strides. This approach has made the NRC a lean and more 
effective regulatory agency. I do want to take a moment to acknowledge 
the service of the current Chairman of the NRC, Nils Diaz, as he has 
been a driving force behind much of the positive changes at the Agency. 
After nearly a decade of serving on the Commission, Chairman Diaz has 
decided to step down. He will be missed and I want to publicly thank 
him for his service. It will now be up to Dr. Klein to continue that 
progress. If nuclear, and more specifically NEW nuclear, is going to 
play an increasing role in this Nation's energy mix, the NRC must do 
its job effectively. They need to continue the effort at risk-based 
regulations, enforcement actions and programs. It is not only important 
that we continue the progress on relicensing, we have to make sure that 
the NRC can handle licenses for new plants. These are major challenges 
facing the Commission.
    We need a full and confirmed Nuclear Regulatory Commission. When 
the committee votes on Dr. Klein's confirmation, we will also include 
on that agenda both Commissioners Lyons and Jaczko.
    Dr. Lyons and Dr. Jaczko are currently serving under recess 
appointments that will expire at the end of this Congress. The NRC has 
significant challenges ahead and we cannot ask for the Commission to 
function up to our expectations if we do not have a full and confirmed 
commission in place.
    I want thank the nominees for being here today and for your 
willingness to serve. It is my hope that we can have you confirmed in 
the very near future.

    Senator Inhofe. I recognize the Ranking Minority Member, 
Senator Jeffords, for an opening statement. As soon as that is 
completed, I think Senator Hutchison wants to be here for one 
introduction of Dr. Klein and maybe some other introductions.
    Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Mr. Chairman.
    Today we have two nominees before us. The first, Dale 
Klein, has been nominated to serve as Commissioner of the 
Nuclear Regulatory Commission. The mission of the NRC is one of 
the most vital functions carried out by the Federal Government. 
I will be asking questions to ensure that the nominee shares my 
view: the top priority for NRC is safety.
    Mr. Klein has been nominated to join the NRC at a time 
when, I believe, public confidence in the Commission needs to 
be bolstered. Fortunately, and to the NRC's credit, we have not 
had a serious nuclear accident at any of our Nation's nuclear 
facilities. But problems on several plants, including a plant 
in my home State of Vermont, have left the public wondering 
about the effectiveness of our regulatory system. We are asking 
the public to accept continued and expanded nuclear power 
generation. To do that, we need to earn their confidence that 
the NRC is ensuring that nuclear plants operate well and 
safely. I will be looking for assurances from the nominee that 
he is committed to this goal.
    Ms. O'Neill, it will be your role to lead EPA's Office of 
Environmental Information. This office is critical for the 
Agency's mission and for helping the public understand and 
improve environmental conditions where they live and work and 
play.
    I am deeply concerned, however, that the Bush 
administration seems intent on undermining the public's right 
to know about environmental conditions in their communities. 
Last year, the Administration proposed to shield polluters by 
throwing out the requirement that industry disclose toxic 
releases every year. Instead, the Administration would have 
them report toxic releases only every other year.
    The EPA has also proposed to exempt the thousands of 
facilities from reviewing how much toxic waste was released and 
where it went. According to the EPA's own data, over 1,400 
facilities that released cancer-causing materials in 2003 would 
be able to hide their emissions under this proposal. It is 
therefore not surprising that officials from 23 States 
submitted comments in opposition to this proposal.
    The Toxic Release Inventory Program has proven to be one of 
the most successful environmental statutes. By shining a light 
on toxic releases across the Nation, the volume of toxic 
material released annually has fallen by an estimated 59 
percent since the disclosure requirement went into effect in 
1988. But now this Administration wants to dim that light.
    Just this week we learned of a new assault on the public's 
right to know. The Washington Post reported that funding cuts 
under President Bush's fiscal year 2007 budget would force EPA 
to close its network of regional libraries. These libraries 
play an important role in informing the public, and their 
disclosure would be another example of this Administration's 
disturbing trend of blocking access to public information.
    Mr. Chairman, I ask that this document, a 2004 EPA review 
which points to the overwhelming cost benefits of the library 
system, be placed into the record.
    Senator Inhofe. Without objection, I expect that will be 
done.
    [The referenced document follows on page 85.]
    Senator Jeffords. From my perspective, it is critical that 
the head of the EPA's Office of Environmental Information be 
committed to preserving the public's right to know about 
environmental conditions in their communities.
    I look forward to exploring your views on this issue and 
learning, in particular, whether you support the 
Administration's proposal.
    Thank you.
    [The prepared statement of Senator Jeffords follows:]
      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Thank you Mr. Chairman, today we have two nominees before us. The 
first, Dale Klein, has been nominated to serve as a Commissioner of the 
Nuclear Regulatory Commission (NRC). The mission of the NRC is one of 
the most vital functions carried out by the Federal Government. I will 
be asking questions to ensure that the nominee shares my view: the top 
priority for the NRC is safety.
    Mr. Klein has been nominated to join the NRC at a time when, I 
believe, public confidence in the Commission needs to be bolstered. 
Fortunately, and to the NRC's credit, we have not had a serious nuclear 
accident at any of our Nation's nuclear facilities. But problems at 
several plants, including a plant in my home State of Vermont, have 
left the public wondering about the effectiveness of our regulatory 
system.
    We are asking the public to accept continued and expanded nuclear 
power generation. To do that, we need to earn their confidence that the 
NRC is ensuring that nuclear plants operate well and safely. I will be 
looking for assurances from the nominee that he is committed to this 
goal. Ms. O'Neill, it will be your role to lead EPA's Office of 
Environmental Information. This office is critical for the Agency's 
mission, and for helping the public understand and improve 
environmental conditions where they live, work and play.
    I am deeply concerned, however, that the Bush administration seems 
intent on undermining the public's right to know about environmental 
conditions in their community. Last year, the Administration proposed 
to shield polluters by throwing out the requirement that industry 
disclose toxic releases every year. Instead, the Administration would 
have them report toxic releases only every other year. The EPA also 
proposed to exempt thousands of facilities from revealing how much 
toxic waste was released and where it went. According to EPA's own 
data, over 1,400 facilities that released cancer-causing materials in 
2003 would be able to hide their emissions under this proposal. It is 
therefore not surprising that officials from 23 States submitted 
comments in opposition to this proposal.
    The Toxic Release Inventory Program has proven to be one of the 
most successful environmental statutes. By shining a light on toxic 
releases across the Nation, the volume of toxic material released 
annually has fallen by an estimated 59 percent since the disclosure 
requirement went into effect in 1988. But now, this Administration 
wants to dim that light.
    Just this week, we learned of a new assault on the public's right-
to-know. The Washington Post reported that funding cuts under 
President's Bush fiscal year 2007 budget would force EPA to close its 
network of regional libraries. These libraries play an important role 
in informing the public, and their closure would be another example of 
this Administration's disturbing trend of blocking access to public 
information. Mr. Chairman, I ask that this document, a 2004 EPA review 
which points to the overwhelming cost benefits of the library system, 
be placed in the record. From my perspective, it is critical that the 
head of EPA's Office of Environmental Information be committed to 
preserving the public's right-to-know about environmental conditions in 
their communities. I look forward to exploring your views on this issue 
and learning, in particular, whether you support the Administration's 
proposals.

    Senator Inhofe. Thank you, Senator Jeffords. We are looking 
forward to the opening statements of our other Members, but, 
with their permission, we will go now to a special introduction 
that Senator Hutchison is going to make of Dr. Klein.
    Senator Hutchison.

 OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR 
                    FROM THE STATE OF TEXAS

    Senator Hutchison. Well, thank you very much, Mr. Chairman. 
Thank you, Senator Jeffords, Senator Warner, Senator Voinovich, 
Senator Lautenberg.
    I am so pleased to be here because I am introducing a 
personal friend who I think also has stellar qualifications for 
the position of Chairman of the Nuclear Regulatory Commission. 
Before entering public service, Dr. Klein served as vice 
chancellor for Special Engineering Programs at the University 
of Texas System. He also was chairman and executive director of 
the Amarillo National Research Center.
    President Bush then selected him, in 2001, to act as 
Assistant to the Secretary of Defense for Nuclear, Chemical, 
and Biological Defense Programs. His vast experience with 
nuclear policy, coupled with his vision for the Nuclear 
Regulatory Commission will enable Dr. Klein to serve as a 
valuable asset to our country. His qualifications, experience, 
and integrity make him the very strongest candidate for this 
position.
    At a time when our Nation is at increasing risk from 
nuclear threats and we also are trying to improve and develop a 
nuclear program for energy sources for our country, he is the 
perfect person, with his knowledge of nuclear policy, to try to 
bring all of that to fruition.
    He is joined today by his wife Rebecca Klein, a former 
chairman of the Texas Public Utility Commission and a great 
public servant in her own right. She has been an outstanding 
public servant, as has Dr. Klein, and I so hope that you will 
act expeditiously on his nomination. I know he will be a huge 
asset for us.
    Thank you.
    Senator Inhofe. Thank you, Senator Hutchison. I know they 
appreciate your presence here today. You may be excused if you 
need to.
    Senator Hutchison. Thank you very much.
    Senator Inhofe. Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman, for holding 
this nomination hearing.
    Unfortunately, I am not able to stay because I am 
introducing my good friend, Rob Portman, to the Homeland 
Security and Government Affairs Committee for his nomination to 
be Director of the Office of Management and Budget. I wish that 
I could be here for this entire hearing, because it brings 
together two subcommittees that I chair.
    As chairman of the subcommittee that oversees Government 
management in the Federal workforce, I want to make sure that 
we have the right people with the right knowledge and skills at 
the right place at the right time. I am especially concerned 
about this for the Nuclear Regulatory Commission because I also 
chair the Subcommittee on Clean Air, Climate Change, and 
Nuclear Safety, which oversees the Nuclear Regulatory 
Commission.
    I welcome our nominees, Dr. Dale Klein for Chairman of the 
NRC, and Ms. Molly O'Neill for Assistant Administrator of EPA's 
Office of Environmental Information. I thank you both for your 
willingness to serve and, even more importantly, I thank your 
families for their sacrifices.
    This is one of the most challenging times, Mr. Chairman, 
for the NRC, as the industry is actively pursuing to build new 
nuclear powerplants for the first time in decades. I just got 
an update on that, and it looks like we have, at this stage of 
the game, a possibility of 15 to 18 new applications coming in 
for nuclear powerplants in this country, which is the first 
time this has happened in my lifetime in terms of being here in 
the Senate. Mr. Chairman, you know it wouldn't have happened 
without the passage of the Energy bill last year.
    At the same time, the Agency will have to deal with a wave 
of retirements, as more than 30 percent of its workforce will 
be eligible to retire. More than ever, the Commission needs 
strong and able leadership.
    Mr. Chairman, I met with Dr. Klein last week, and we had a 
detailed discussion about his qualifications and vision for the 
Commission. I believe that Dr. Klein has the right mix of 
technical, policy, and management experience to serve as NRC's 
chairman. His significant management experience at department 
events, combined with the years he spent in academia, make him 
uniquely qualified for the position.
    I just want to mention for the record, Mr. Chairman, that 
when he was over at DOD, he oversaw some 2,400 employees, 
including 20 career SES managers, and a $6 billion budget. At 
the NRC he will have a few more employees, 3,300, but a $760 
million budget. As you know, Mr. Chairman, from your 
longstanding interest in the Nuclear Regulatory Commission, the 
thing that we really need there is management, management, 
management, and I really think that Dr. Klein is qualified to 
get the job done there for us.
    I am pleased with his stated commitment to instilling 
regulatory stability at the NRC with a focus on milestones and 
deliverables. I appreciate his balance to push the NRC as a 
regulator that ensures the safe operation of the existing fleet 
of nuclear plants without stifling the growth of nuclear power. 
This committee has spent a considerable amount of time and 
oversight in our legislation, and I don't want to see the 
progress eroded, as it is vitally important for this country's 
environmental, energy, and economic well-being.
    Dr. Klein, I look forward to working with you as you take 
on your challenges at the NRC. We held an NRC oversight hearing 
in my subcommittee in March, and we are planning more before 
the end of the year.
    One last thought before I have to leave, Mr. Chairman. The 
NRC currently has two recess-appointed Commissioners, Greg 
Jaczko and Pete Lyons. With the challenges facing the 
Commission, I am very concerned about the situation and believe 
they should be confirmed as expeditiously as possible, along 
with Dr. Klein. I understand, Mr. Chairman, that is your 
position on this, and I urge the committee and Senate to act 
quickly so that we have a full Commission and Dr. Klein can get 
rolling.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Mr. Chairman, thank you for holding this very important nominations 
hearing.
    Unfortunately, I am not able to stay because I am introducing my 
good friend, Rob Portman, to the Homeland Security and Government 
Affairs Committee for his nomination to be Director of the Office of 
Management and Budget.
    I wish that I could be here for this entire hearing because it 
brings together two subcommittees that I chair. As chair of the 
subcommittee that oversees government management and the Federal 
workforce, I want to make sure that we have the right people with the 
right skills running our Nation's Agencies. I am especially concerned 
about this for the Nuclear Regulatory Commission because I also chair 
the Subcommittee on Clean Air, Climate Change, and Nuclear Safety which 
oversees them.
    I welcome our nominees--Ms. Molly O'Neill for Assistant 
Administrator of EPA's Office of Environmental Information and Dr. Dale 
Klein for Chairman of the NRC. I thank you both for your willingness to 
serve, and even more importantly, I thank your families for their 
sacrifices.
    This is one of the most challenging times for the NRC as the 
industry is actively pursuing to build new nuclear powerplants for the 
first time in decades. At the same time, the Agency will have to deal 
with a wave of retirements as more than 30 percent of its workforce 
will be eligible to retire. More than ever, the Commission needs strong 
and able leadership.
    Mr. Chairman, I met with Dr. Klein last week and we had a detailed 
discussion about his qualifications and vision for the Commission. I 
believe that Dr. Klein has the right mix of technical, policy, and 
management experience to serve as NRC's Chairman. His significant 
management experience at the Department of Defense combined with the 
years he has spent in academia makes him uniquely qualified for this 
position.
    I am pleased with his stated commitment to instilling regulatory 
stability at the NRC with a focus on milestones and deliverables. I 
appreciate his balanced approach toward the NRC as a regulator that 
ensures the safe operation of the existing fleet of nuclear plants 
without stifling the growth of nuclear power. This committee has spent 
a considerable amount of time on oversight and on legislation, and I do 
not want to see that progress eroded as it is vitally important for 
this country's environmental, energy, and economic well-being.
    Dr. Klein, I look forward to working with you as you take on these 
challenges at the NRC. We held an NRC oversight hearing in my 
subcommittee in March and are planning more before the end of this 
year.
    One last thought before I have to leave. The NRC currently has two 
recess-appointed Commissioners--Greg Jaczko and Pete Lyons. With the 
challenges facing the Commission, I am very concerned about this 
situation and believe that they should be confirmed as expeditiously as 
possible along with Dr. Klein. Mr. Chairman, I understand that this is 
also your position. I urge this committee and the Senate to act quickly 
so that we have a full Commission.
    Again, I thank the witnesses for being here today and for their 
desire to serve this country.

    Senator Inhofe. Thank you, Senator Voinovich.
    We are joined by our senior member of this committee, 
Senator Warner, who is also the Chairman of the Senate Armed 
Services Committee.
    Senator Warner.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you very much, Mr. Chairman. It is 
always heartening at these hearings to see and read the 
dossiers of the selections by the President. In this instance 
two very eminently well experienced, qualified individuals. I 
would like to note that Ms. O'Neill is a graduate of Virginia 
Tech, an outstanding institution in the Commonwealth of 
Virginia. You have my vote.
    [Laughter.]
    Senator Warner. Mr. Klein, I had a very excellent meeting 
with him, and I was reassured, Mr. Chairman, that this nominee 
really wants to try and in no way marginalize safety, but see 
what we can do to cut down the amount of time necessary to get 
the permits and other regulatory conditions met by the private 
sector as we, as a Nation, hopefully move more and more in the 
direction of developing, for power purposes, our nuclear 
energy. So I hope this nominee is able to work with his 
colleagues and effect that.
    We also talked about one of the means to do it whereby the 
Commission pick three or four standard designs of a plant, well 
known, well proven designs, certainly from the safety 
perspective. But that might be a contributing factor to 
reducing the amount of time, which now takes longer to get the 
permits than to build the plant. So I am encouraged by this 
nominee and his desire to help this Nation bring into greater 
balance its energy resources such that nuclear makes an 
increased contribution.
    I thank the Chair and the Ranking Member.
    Senator Inhofe. Well, thank you very much for that 
excellent statement.
    Senator Lautenberg, thank you for deferring to Senator 
Warner. You are recognized.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Always I know where my seniority 
stands, Mr. Chairman. I was happy to defer to my colleague, my 
esteemed colleague.
    Mr. Chairman, thanks for holding this hearing and giving us 
an opportunity to learn more about these two nominees. If 
confirmed, they will have the opportunity to positively affect 
the lives and the safety of millions of Americans.
    First, regarding the NRC. Now, I support the use of nuclear 
energy, which is a far different thought than I or many of us 
had in years past. But the reality has come home, and we just 
can't depend on the same old way of energizing our needs. So I 
support the use of nuclear energy. It provides 54 percent of 
New Jersey's electricity.
    I also believe--and I had an opportunity to meet with Dr. 
Klein yesterday. I think we had a meeting of the minds 
generally. Because the safety factor must always come first, 
and I think Dr. Klein shares that view--he will have a chance 
to talk about it--and that the Nuclear Regulatory Commission's 
most important assignment must always be to protect the public 
health and safety.
    The NRC is a watchdog on the nuclear power industry. This 
is not to suggest they have any evil, but we have seen what 
happens when mistakes are made in nuclear power generation. We 
just can't have a cheerleader, we have to have someone, we have 
to have the inspector looking very carefully at what is going 
on. The American people have concerns about nuclear energy, and 
it has been decades since a new nuclear facility was approved 
in our country. In order for nuclear power to remain a viable 
energy option, the industry needs to be open and honest with 
the public, and the NRC needs to ensure the views of the public 
and the States are fully considered.
    Now, one of the nuclear facilities in our country, in New 
Jersey is Oyster Creek. It is the oldest operating nuclear 
plant in the United States, and the plant owners want to renew 
the operating license for 20 more years. As the NRC considers 
that request, it should give the people and the government of 
New Jersey a chance to air their views in public hearings on 
the record. The NRC must always protect the interests of the 
public, and it must protect whistleblowers who take the risk of 
exposing potential safety hazards in nuclear plants, and the 
risk is a job risk or an assignment risk. So we have to respect 
those sources if they come to us.
    Now, I look to Dr. Klein's statement on the remainder of 
the hearing and learning more deeply about his views.
    Our other nominee was chosen to head EPA's Office of 
Environmental Information. That office has the critical 
responsibility to implement the Toxic Release Inventory. The 
TRI program requires industry facilities across the country to 
report the amount of toxic chemicals that they store, 
manufacture, transport chemicals, and what might be released 
into the environment. This program is a cornerstone of our 
Federal Right-to-Know Law and has helped to keep citizens aware 
of the exposures and risks they face in their communities.
    Now, last year, EPA proposed several changes to this 
program that would reduce the amount of information available 
to people, to States and first responders across this country. 
Now, my home State of New Jersey, home to lots of chemical and 
fueled processing facilities, we have opposition within our 
State, as there is in 22 other States, at the reduction, the 
notion that we would reduce the time cycles and the standards 
for reporting.
    New Jersey estimates that EPA's proposal would exempt more 
than 100 facilities in our State from requirements to report 
toxic chemical releases to the public, and these include 
facilities that discharge carcinogens such as arsenic, styrene, 
and chromium. EPA has also informed Congress that it intends to 
require reporting of this information on a biannual basis, once 
every 2 years, rather than annually, and that would make it 
harder for citizens to know what is happening in their 
communities.
    Now, I helped create the TRI program in the aftermath of 
the tragic release of a deadly chemical cloud in Bopal, India. 
The public's right to know about chemicals stored and released 
into their environment is too important to be gutted. So I 
strongly oppose the changes that EPA and the Office of 
Environmental Information have proposed to the Toxic Release 
Inventory program, and I look forward to hearing the nominees' 
views on this important topic.
    Mr. Chairman, thanks for holding this meeting. I, like 
Senator Warner, have a hearing on the next occupant of the OMB 
director seat, so please excuse me. I will submit questions in 
writing.
    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Obama.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Thank you, Mr. Chairman. Thanks for holding 
this hearing today. I would like to welcome the nominees and 
their families.
    As my colleagues know, the State of Illinois ranks No. 1 in 
the number of nuclear powerplants; we have 11. Unfortunately, 
in recent months, Illinois has also achieved the distinction of 
being the first in the Nation to record a series of tritium 
leaks at these plants. I had the opportunity to meet with Dr. 
Klein and have a brief discussion about this. I know that the 
scientific evidence suggests low levels of tritium don't pose a 
significant public health hazard, but as I indicated to Dr. 
Klein in our meeting, that is not the issue. The issue is 
whether neighboring communities have a right to know about 
these leaks, even if they don't pose a significant hazard.
    My constituents who live near these plants just want timely 
and complete information about any leaks so they can properly 
evaluate the environment where their families live. As a parent 
of two young daughters, I can certainly understand these 
concerns. When there is a 3-million-gallon leak of tritiated 
water, as occurred both in 1998 and 2000 in Will County, IL, I 
don't think it is unreasonable to expect that the leak will be 
made public right after it happens, not 7 years later.
    So to address a serious problem, Mr. Chairman, I introduced 
this Nuclear Release Notification Act in March, that is, Senate 
bill 2348, to reform NRC notification requirements for 
residents who live near nuclear plants. My bill is very simple, 
it simply says that State and local officials should receive 
prompt notification after any unplanned leaks.
    I was pleased earlier this month that the nuclear industry 
announced its members would voluntarily provide such 
notification to State and local officials, and I welcome the 
decision, but it begs the question if industry itself 
understands and accepts the importance of greater openness and 
transparency. I don't understand why we shouldn't make the 
notification mandatory, and not just voluntary.
    I know that NRC is conducting its own review on what 
notification should be required, and that review is set to be 
completed in September. My hope is that we will get a 
commitment to adopt these mandatory disclosure proposals. I 
hope that will be one of the recommendations in the report in 
September.
    Dr. Klein, I understand that you may not have been willing 
to make this commitment yet. I would like to make this 
commitment made soon, because as I indicated to you in our 
meeting, even if it turns out that these releases are not 
harmful, because of public perceptions, neighboring communities 
can end up seeing their property values affected significantly; 
they may not be able to sell their home. There is a lot of 
misinformation floating around as a consequence of the 
unwillingness to share this information.
    Let me just finally end, Mr. Chairman, by echoing something 
that my colleague from New Jersey, Senator Lautenberg, stated 
with respect to Ms. O'Neill. I am somewhat concerned and 
unclear as to why we have seen a proposal from the office that 
you will be heading regarding TRI reporting. It is not clear to 
me why we have proposed the changes that have been proposed 
with respect to making the reporting less consistent and 
reducing the amount of information that is collected in certain 
areas.
    Again, I am somebody who actually believes that nuclear 
power is an important component in our overall energy 
portfolio, but I think that, given past fears, the only way 
that we are going to be able to move this industry forward is 
to make sure that everybody is properly informed. So my hope is 
that on both these fronts we make some progress, and I look 
forward to working with the nominees in this regard.
    Senator Inhofe. Thank you, Senator Obama.
    We have a vote that has just opened. What I would like to 
do is hear the opening remarks of Senator Carper, and then we 
will have a very short recess. It takes about 10 minutes to get 
over there and back.
    Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I am pleased to see Dr. Klein. Thank you for visiting with 
me yesterday and congratulations on your nomination.
    I want to welcome Ms. O'Neill today to our hearing.
    In my brief comments today, I want to focus on nuclear 
energy. I believe that a renaissance is underway in nuclear 
power. I welcome that. Today, some nine companies or groups of 
companies have developed applications or are developing 
applications for new nuclear powerplants with the intention of 
filing those applications, I am told, with the NRC in the next 
couple of years.
    In addition, many of the current nuclear plants that we 
already have--I think there is about 100 or so--have renewed 
their licenses to continue to operate, and we expect the rest 
of the current fleet to apply for renewals soon. Although the 
Department of Energy continues to push back its time line, I 
believe we can assume that in the not too distant future they 
will apply for a license to operate a nuclear waste repository.
    I believe that the future of the nuclear industry literally 
begins and ends with the Nuclear Regulatory Commission. The 
responsibility that the Commission shoulders is a big 
responsibility and one that I believe that the Commission 
manages, for the most part, quite well. As I said earlier, I am 
a believer in nuclear power and nuclear energy, and I am 
heartened by its resurgence, though I acknowledge that there 
are serious concerns about the disposal of nuclear waste.
    While there has been a lot of discussion about this nuclear 
renaissance, I am concerned that our focus on potential new 
plants may have resulted in our forgetting about some of our 
current plants that are already in existence. The public trust 
in nuclear power must be reassured, and that assurance must 
start with our current fleet of plants. When I was Governor of 
Delaware, I would oftentimes tell my staff and cabinet--in 
fact, our motto was, ``if it isn't perfect, make it better.'' 
On balance I believe our existing nuclear powerplants have 
performed well, but we all know they haven't been perfect.
    Over the past year, we have been faced, as Senator Obama 
says, with tritium leaks not only in Illinois, but in New 
Jersey, across the river from Delaware, by unplanned shutdowns, 
by lost fuel rods, and by a number of other problems. I believe 
the NRC must work hard to make sure that every nuclear 
powerplant in the United States strives every day for 
perfection.
    We are all aware that the coming years are going to require 
a significant increase in our energy productions, hopefully a 
cleaner energy than we have had in the past. I believe that 
most of us are aware of the need for the United States to have 
a broad portfolio of energy sources, and I believe nuclear must 
maintain a prominent place in that portfolio.
    To make sure that nuclear power fulfills its future 
promise, the NRC must faithfully fulfill its current oversight 
mission.
    Dr. Klein, as I said to you yesterday, I think you have 
been nominated for an important post, a very important post at 
a very important time for our country. We look forward to 
hearing your testimony following our vote, and that of Ms. 
O'Neill. If you are confirmed, I certainly look forward to 
working closely with you and your colleagues on the Commission. 
Again, welcome and thank you.
    Senator Inhofe. Thank you, Senator Carper.
    We now have a 10-minute recess. Don't leave. We will be 
right back.
    Molly, when we get back, you are going to introduce Mama, 
OK?
    [Laughter.]
    [Recess.]
    Senator Inhofe. We will start with Dr. Klein's family 
introduction, since I think he only has one, then we will get 
to Molly, OK?
    [Laughter.]
    Senator Inhofe. Dr. Klein, do you have someone you would 
like to share with us today?
    Mr. Klein. I certainly do, Senator. As you know from the 
military perspective, you have CICs, you know, commanders in 
chief. My commander in chief of the house, my wife, Becky.
    Senator Inhofe. Becky, stand up so we can see you. Nice to 
have you here, Becky.
    Molly?
    Ms. O'Neill. Thank you, Mr. Chairman. I have a very large 
contingent here, as you have witnessed.
    Senator Inhofe. As you introduce them, I will ask them to 
stand up until you finish your introductions.
    Ms. O'Neill. Certainly.
    Senator Inhofe. Start with mama.
    Ms. O'Neill. My mother, Pam O'Neill, is present; my aunts 
and uncles, Kate and Chuck Wall from Lynchburg, VA; Amelia Kriz 
from Annapolis, MD; and my brother surprised me by flying in 
last night with my oldest nephew, so Ted and Kieran O'Neill are 
here from Seattle, WA. And I thank them for coming.
    Senator Inhofe. Well, thank you all for coming in, and you 
can be very, very proud of Ms. O'Neill today.
    Why don't we go ahead and, before we start, let me just--is 
Nils Diaz here in the audience? I thought he might be here, but 
he is not. I was going to make--in fact, I will make a comment 
about him. He has had 10 years of great service. The changes 
that we advocated back when I mentioned that there had not been 
a hearing in 12 years, he was primarily responsible for all of 
the improvements that we have experienced. I want to pay 
special tribute to him now for his 10 years of service. He has 
decided to step down, and he has been a great asset, too, to 
this committee and to the whole system that we are talking 
about and addressing today.
    Why don't we start, ladies first, and if you would start 
with your opening statement. I think we will be joined by other 
members coming back from voting. Unfortunately, we do have 
other votes that are coming back, one of which is one of my 
amendments, so we will have to kind of wade through this.
    Ms. O'Neill.

   STATEMENT OF MOLLY O'NEILL, NOMINATED TO BE AN ASSISTANT 
         ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Ms. O'Neill. Thank you, Mr. Chairman. Mr. Chairman and Mr. 
Jeffords, if he were here, I would extend my----
    Senator Inhofe. He will be right here.
    Ms. O'Neill [continuing]. And distinguished members of the 
committee, it is both a privilege and honor to come before you 
as President Bush's nominee to be the Assistant Administrator 
for the Office of Environmental Information and Chief 
Information Officer for the U.S. Environmental Protection 
Agency. I have environmental program and information technology 
experience, and also a passion for ensuring environmental 
decisions and policy are based on defensible data.
    I come from a strong and supportive family. I would like to 
take this opportunity to thank the members of my family, as 
well as my friends and colleagues, for their continuing 
support.
    All of my professional experience is rooted in supporting 
environmental protection. I began my career collecting 
environmental samples, visited dozens of industry facilities 
and reviewed countless analytical results. I spent 8 years 
working with State environment department leaders to improve 
their business to redesigning their business processes and 
incorporating technology without compromising the integrity and 
outcome of the programs.
    Over the past 4 years, I served as the State Director of 
the National Environmental Information Exchange Network. I know 
my reputation on developing the partnerships in the States, 
collaborating with EPA, and working with new technologies on 
this project is one of the reasons I am before you today.
    In my testimony today, I would like to share my thoughts on 
managing information at the Federal and environmental levels. 
The Federal Government is comprised of more than 100 agencies 
and thousands of subagencies and programs. The complexity of 
relationships with other levels of government, as well as the 
private, non-profit, and university sectors, is daunting and 
system communication barriers continue to exist.
    Given these complexities, the challenge is how we use 
information technology to better serve the government and the 
American citizen. The President's Management Agenda, through 
the advancement of the Federal Enterprise Architecture, is the 
blueprint for how agencies can share data better in the future.
    I believe that CIOs at all levels of government must align 
investments to create system interoperability required to 
provide the American public with government services, 
especially in times of crises. The prospect of the Federal 
Government providing leadership on interoperability is one of 
the most profound actions it can take in this decade. It will 
also take strong leadership and a willingness to share and 
adopt best practices, tools, and systems between Agencies.
    With respect to environmental data, I am fortunate that EPA 
has built a strong foundation with three major programs, 
namely, Environmental Indicators, the National Environmental 
Information Exchange Network, and Enterprise Architecture.
    The Assistant Administrator for the Office of Environmental 
Information has the responsibility to ensure environmental data 
is shareable and accessible, quality is not compromised, 
systems are secure from today's threats, and data can be turned 
into meaningful information. The foundation has been set and 
great strides have been made. That said, for EPA to be more 
responsive to the American public's questions on the 
environment, progress needs to continue in all of these 
programs I mentioned.
    If confirmed, I will focus on improving data quality and 
access to environmental information. It is my vision that 
scientists will make decisions based on historical and real 
time data. Government Agencies will have access to 
environmental data in daily processes, as well as in times of 
national emergencies.
    I grew up part of a military family. My late father, 
Lieutenant Colonel Vincent O'Neill, was a first generation 
Irish American who graduated from the U.S. Naval Academy and 
served proudly for more than 20 years as an officer in the U.S. 
Marine Corps. He was a highly decorated war hero, serving two 
tours on the ground in combat in Vietnam. When I became an 
adult, he shared his belief with me that every citizen should 
perform some type of service to his country, whether it is 
military, government, or public. Giving back makes this country 
great. Even though I have worked in the private sector for most 
of my career, I want you to know I believe in my father's 
philosophy.
    I am now ready, enthusiastic, and committed to this 
opportunity to serve. I am confident that I can utilize my 
experience and leadership skills to advance the Agency in 
meeting the challenges and opportunities that lay ahead. If 
confirmed, I intend to support the President's E-Government 
agenda. I will also support Administrator Johnson in 
accelerating the pace of environmental protection while 
maintaining our Nation's economic competitiveness. If 
confirmed, I look forward to working with this committee, 
Members of Congress, and Administrator Johnson to improve the 
environment and to be responsive to information needs.
    Thank you for the opportunity to appear here today. I would 
be happy to take any questions.
    Senator Inhofe. Well, thank you, Ms. O'Neill. Don't ever 
apologize for having experience in the private sector; that is 
one of the things I like about both nominees today, you have 
had that experience. Thank you.
    Dr. Klein.

   STATEMENT OF DALE KLEIN, NOMINATED TO BE A MEMBER OF THE 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Klein. Thank you, Mr. Chairman, Ranking Member 
Jeffords, and committee members, it is an honor to appear 
before you today as President Bush's nominee for the Nuclear 
Regulatory Commission.
    In addition to thanking my wife for coming today, I would 
also like to thank Senator Hutchison for her introduction.
    The current Commissioners have laid substantial groundwork 
to help prepare the Nuclear Regulatory Commission for the 
challenges it faces in the coming years. Challenge is the 
appropriate word. The next several years will be perhaps the 
most significant in decades in terms of regulating the civilian 
use of nuclear materials.
    This challenge is all the more important when viewed 
through the lens of what is happening in the energy arena. The 
global energy supply can affect both the U.S. economy and U.S. 
interests. Oil and natural gas prices are at levels never seen 
before. There are forecasts that U.S. energy electric demand 
will rise by 50 percent in just over two decades. Clearly, 
nuclear energy has a role to play in meeting that demand.
    The charge of the Nuclear Regulatory Commission is to 
``license and regulate the Nation's civilian use of byproduct, 
source, and special nuclear materials to ensure adequate 
protection of the public health and safety, promote the common 
sense and security, and protect the environment.''
    In meeting that mission, regulatory stability is a crucial 
element. The NRC must clearly define the requirements. It must 
respond in a timely manner. I believe the groundwork laid by 
the Commission will be the key to providing the necessary 
regulatory stability.
    The challenges ahead for the NRC are substantial: dealing 
with the impending wave of applications for new reactors, 
overseeing their construction, and simultaneously ensuring the 
existing plants receive high standard of regulatory oversight 
set by the NRC is extremely important. The already high 
security of nuclear facilities must be maintained.
    There is a challenge to the Agency of dealing with a 
potential application by the Energy Department for a high level 
waste repository. Both this committee and the Appropriations 
Committee have been very supportive of the Commission. 
Continued support will be essential to help ensure that the 
licensing process moves smoothly. If confirmed, you have my 
assurance I will work closely with you and members of this 
committee on these issues.
    Ensuring that the current fleet of commercial nuclear 
powerplants receive the proper level of scrutiny during the 
coming decade, as new plants are licensed and built, will 
require a continued focus by the NRC on quality oversight. If 
confirmed, I can assure you that I intend to see that the 
lessons learned from the past are institutionalized in the NRC.
    Mr. Chairman, members of the committee, while much of my 
background is technical in nature, I am an experienced 
administrator who believes in milestones and deliverables. My 
goal is to make sound decisions, based on sound science and 
sound public policy. If confirmed, I look forward to working 
with this committee and the challenge of being an NRC 
commissioner.
    This concludes my statement, and I look forward to your 
questions.
    Senator Inhofe. Well, thank you. Thank you, Dr. Klein.
    I will go ahead and start with questions. One of the 
Senators in opening statements made the comment there are some 
nine applications. I think there are actually more than that 
right now. A sense of agreement that we seem to have on a 
bipartisan basis is that we are not going to really resolve our 
energy crisis in this country without the nuclear component. We 
have said it many times and I know that has a lot of 
popularity. It wasn't always the case, but it is now. It is 
looked upon as being safe, clean, and abundant and inexpensive. 
So speaking for myself, and I am sure others share this same 
notion, we want to get there as quickly as possible.
    You are stepping in at a time, and particularly in the 
position you are going to be in, when there are going to be a 
lot of applications to deal with, and I would like to get a 
pretty good idea from you as to your timing. I know this is all 
new to you right now, but maybe that is good. Maybe you can 
look at it with less of a bureaucratic view. What kind of 
timing do you think you could put on some of these 
applications? Do you have some general ideas you can discuss 
with us?
    Mr. Klein. Well, Mr. Chairman, having been regulated in the 
past as a licensee, I think it is very incumbent upon the 
Nuclear Regulatory Commission to establish clear requirements 
and then to respond in a timely manner. One of the issues that 
I think the Nuclear Regulatory Commission can do that will help 
expedite difficulties in the past is to have standardized 
processes, both the environmental site issues and also a 
standardized plant process. With those two issues, I believe 
that the Nuclear Regulatory Commission can expedite license 
applications with no compromise on safety and ensure public 
confidence.
    The current guidelines that the Nuclear Regulatory 
Commission staff has indicated is that if they have a complete 
application, they believe they can review an application in 30 
months. What I would like to see is once that process is 
completed, I would like to look carefully at the decisions made 
by the Nuclear Regulatory Commission to see what process 
improvements can be made to make that on a more timely manner 
with no compromise on safety.
    Senator Inhofe. Like what?
    Mr. Klein. I think one of the issues would be to look at a 
concept called lean six sigma, where you look at lean issues to 
make sure that all the processes that you do are risk-based; 
that you look at the big issues; that you don't get caught up, 
so to speak, down in the weeds; that you look at the important 
issues, give clear guidance; and you have a trained staff that 
will respond quickly and appropriately.
    Senator Inhofe. Yes.
    Mr. Klein. So I think looking at all the requirements is--
--
    Senator Inhofe. Well, here is what I would like to do, not 
here at this meeting, but after you get settled in, just 
because you all know so much more about this than I do. I would 
like to see kind of a little calendar of events on things and 
reasonable expectations when different things can be done, 
reviews and hearings and whatever goes into the process, so 
that maybe we can visit, maybe even have a hearing on this as 
to how we can expedite this. I think it is very important that 
we do it as quickly as possible.
    You commented on a risk-based approach, and I had a 
question on that, but you covered that, I think, in your 
opening statement.
    Security at nuclear facilities is something that we have 
always been concerned about here, and I would ask if you agree 
that it is important that there be a clear distinction of 
responsibility in protecting these facilities between the 
licensee, State, local, law enforcement, and Federal 
Government.
    Mr. Klein. Mr. Chairman, security is very important at 
nuclear plants because they are perceived to be a target. From 
my current position at the Department of Defense, I am 
responsible for the nuclear security of other nuclear assets 
that the Government has, so we have a very comprehensive 
program, and I believe that your comment is very appropriate.
    There should be certain requirements that the utilities 
have to provide. Once that level is exceeded, then the State 
and also the local enforcements should pick up the 
responsibility, and then finally the Federal Government. So it 
has to be a shared responsibility where the private industry, 
the local, State and Federal Governments are involved.
    Senator Inhofe. Well, thank you. That is good. I had an 
opportunity to visit with both of you in my office and most of 
my questions were answered. You used a term. See, I have to 
call you Molly. It sounds wrong, but I was telling your mama 
that I have both a daughter and a granddaughter named Molly, so 
it just makes me happy. I am the Chairman, so I can do that.
    [Laughter.]
    Senator Inhofe. Is that Senator Clinton?
    Senator Clinton. Yes, sir. Some of the names----
    [Laughter.]
    Senator Clinton. I think that is good.
    Senator Inhofe. I particularly liked one of the phrases you 
used. You said decisions made on defensible data. One of the 
things that bothers me more than anything else is all the--we 
are inundated with flawed science in this committee, and it 
comes from all directions. People with their own agenda, they 
want to believe in some outcome, so they doctor up the science 
so it agrees with their particular philosophy.
    I would ask you, first of all, if you are in this position, 
when you are confirmed, if you will make every effort to 
analyze data, analyze information, and where it is not 
accurate, to come forth and be very honest about that. Any 
thoughts about that?
    Ms. O'Neill. Yes, sir, Mr. Chairman. You may call me Molly 
any time you want.
    Senator Inhofe. All right. I appreciate that.
    Ms. O'Neill. Data quality is a really important thing to 
me, and if I am confirmed, that is one of the focus areas for 
me. I know, having worked with scientific reports and working 
with State environmental agencies, it is a real struggle, and 
it is a struggle not unique to necessarily the environmental 
business, per se, but for all science-based work.
    Part of that is because we sort of have a history of paper 
files and we have a history of moving data around a little bit 
in different ways, and we really have had a lack of data 
standards on the environmental side up until about 5 years ago, 
when we started to really collaborate (the States and the EPA 
and the tribes) on data standards. I will tell you that if I am 
confirmed, that will be a focus, because as a scientist myself, 
I struggle with it and I care about it.
    Senator Inhofe. That is good. I appreciate that.
    Oh, that is right, I forgot about the required questions. I 
will ask each of you to respond so that we can get you 
recorded.
    Are you willing to appear at the request of any duly 
constituted committee of Congress as a witness?
    Mr. Klein. Yes.
    Ms. O'Neill. Yes.
    Senator Inhofe. Do you know of any matters which may or may 
not have thus far been disclosed that might place you in any 
conflict of interest if you are confirmed to this position?
    Ms. O'Neill. No.
    Mr. Klein. No.
    Senator Inhofe. OK. Very good.
    Senator Jeffords.
    Senator Jeffords. Ms. O'Neill, in your testimony you stated 
that ``If confirmed, I will focus on improving data quality and 
access to environmental information.'' As you know, the EPA 
recently proposed converting the annual toxic release corporate 
disclosure requirement into an every other year report and 
allowing thousands of facilities to withhold details of their 
pollution volumes and waste management practices.
    Based on what you know about EPA's Toxic Release Inventory 
proposal, do you support this rule? In particular, would you 
withdraw this proposal if confirmed?
    Ms. O'Neill. Senator Jeffords, thank you for the question. 
I believe right now the EPA is considering and engaging 
stakeholders on the concept of alternate year reportings, but 
it has not been proposed as a rule yet. I will tell you I am an 
advocate for community right-to-know. I think the program has 
been phenomenally successful and I think the data points to it.
    It is a good program for a couple of reasons. One, it 
provides data to the American citizens that they need and their 
communities, and the second is it really holds industry 
accountable and allows them to gauge how they are doing from a 
pollution prevention perspective. So it is a very important 
program.
    So as EPA moves through the stakeholder involvement 
process, I am sure that they will be obtaining comments on this 
proposed option for changing the rule. I can tell you that, if 
I am confirmed, I will work with you and this committee to 
understand the issues here, engage a lot of stakeholders in 
this, because this really is important before moving ahead. I 
do believe it is important and I do believe in the Community 
Right-to-Know Act, and I do believe it needs external 
stakeholder, citizen, regions, and State input before moving 
forward.
    Senator Jeffords. Ms. O'Neill, I have expressed my concern 
about the President's fiscal year 2007 budget proposal, which 
reduces funding for the EPA library network. Should this 
proposal be enacted, what are your plans to preserve and ensure 
access to the 25,000 maps, 3.5 million microfilm objects, and 
the more than a half million books and reports currently housed 
at the 28 libraries nationwide that will either close or 
experience severe cutbacks?
    Ms. O'Neill. Senator Jeffords, the first time I actually 
became aware of this is when I read an article in the 
Washington Post this week about the funding cut for the 
libraries, and, to be honest with you, I really don't know, 
from an EPA perspective, where the budget comes from in terms 
of what compromise the entire universe of EPA libraries, 
whether it is a portion here, a portion there, so it is hard 
for me to comment on the actual specific funding cut per se.
    But I will tell you that I have been a consumer of these 
library services when I was in the private sector. I went to 
them, I used the technical documents and maps. It was important 
service.
    So moving forward, the other key to this is the recognition 
that we can take technical documents and make them available 
online, and clearly, as a person with a technology background, 
I support making things available online because it does 
provide more access to those reports in many ways. Instead of 
having one person or two people checking out those documents, 
you could have 100 people looking at those documents at the 
same time.
    That said, there is an element to this that often 
technologists forget, which is the human factor. Not everyone 
has access to online capabilities, yet, they need access to the 
reports. So if I am confirmed, I will look at this issue to 
make sure that the average scientist, the average citizen who 
needs access to these things, the average consultant out there 
who needs to use these to make decisions will have those same 
rights and abilities to look at that information.
    Senator Jeffords. Thank you.
    Dr. Klein, some have argued that the NRC should limit 
access to security information at powerplants across the board, 
even when such information is not classified. Do you believe 
the NRC should limit public disclosure of non-safeguarded 
security information?
    Mr. Klein. Senator Jeffords, I think we have to be careful 
about what information we provide to the public and for 
potential use by terrorists. But if it is not safeguarded, if 
there is not a security issue and a safety issue, I believe the 
policy of the Nuclear Regulatory Commission should be one of 
openness.
    Senator Jeffords. Thank you.
    Senator Inhofe. All right, well, thank you, Senator 
Jeffords. You will have an opportunity to ask other questions.
    Senator Clinton, if you would like to include an opening 
statement at this time, feel free to do so.
    Senator Clinton. Thank you very much, Mr. Chairman. I will 
just submit a statement for the record, if that is appropriate.
    I want to thank Dr. Klein and Ms. O'Neill for being here 
today.
    Dr. Klein, thank you for meeting with me yesterday. It was 
one of those meetings on the run because I had to go vote, and 
you were a great sport to kind of run down the hall with me and 
jump in the elevator and go over to the Capitol.
    As we discussed, Indian Point, the nuclear powerplant near 
where I live in New York, has been a steady stream of mishaps 
and bad news since September 11th. Just in the last year we 
have had repeated failures of emergency sirens, leaks of 
contaminated water from spent fuel pools, and other problems. 
Yesterday we had a report about a worker onsite who had been 
exposed to a radiation dose above regulatory limits.
    Now, all of these issues erode public confidence in Indian 
Point, in the Nuclear Regulatory Commission, and because of the 
high profile of the plant, being so close to the major media 
market in the world, it undermines confidence in nuclear power 
in general. So I have consistently pushed the NRC and the plant 
owner to do a better job.
    You know, my first concern is obviously the safety and 
peace of mind of my constituents. But I also believe that the 
NRC needs to assert itself more at Indian Point and elsewhere 
if we expect to be able to move forward with new nuclear plant 
applications in our country, because I think, as the Chairman 
pointed out, there are applications waiting; there are a number 
of reasons why nuclear power is being seen as a more favorable 
potential source of energy, because of climate change concerns, 
primarily. But it is also clear that there are unresolved 
safety, cost, waste, and proliferation issues, and we have to 
get ahead of these because, otherwise, I think whatever 
potential benefit there could be from nuclear power will be 
derailed.
    That is why I continue to believe that an independent 
safety assessment along the lines that I have proposed in my 
legislation with respect to Indian Point is in everybody's best 
interests. That idea is also supported on a bipartisan basis by 
a number of my House colleagues who represent districts in the 
vicinity of Indian Point, as well as local elected officials, 
again, both Democrats and Republicans.
    This independent safety assessment would result in an 
extremely thorough review of the plant's operations, as well as 
its evacuation plans, which any person that looks at the 
potential for evacuation from the area surrounding Indian Point 
reaches the conclusion that there is just no way to do it. This 
is hilly terrain, narrow roads, isolated areas that would be 
difficult to evacuate.
    So I was pleased when Chairman Diaz, sitting where you are, 
Dr. Klein, made a commitment to me at the last EPW Committee 
oversight hearing that the NRC would conduct an enhanced 
inspection at Indian Point. But as I mentioned yesterday, the 
information that I have received from the NRC thus far is 
unsatisfactory. The March 28 letter I received from Chairman 
Diaz was vague; it did not address the issue of emergency 
preparedness in any effect. I wrote back on April 3d expressing 
my dissatisfaction with the response and asking for more 
details about what the NRC is in fact proposing to do. I am 
still waiting for a reply.
    So what I want from you today is a commitment to help 
provide specific information about what the NRC has planned at 
Indian Point, and a commitment to work with me and my 
congressional colleagues and local officials whom I represent 
to work out a plan for enhanced oversight that will address 
legitimate public concerns about safety, emergency planning, 
and evacuation. We really need to develop a plan that everyone 
can support.
    So, Dr. Klein, would you commit to working with me to 
develop a plan for an assessment at Indian Point that covers 
safety, emergency planning, and evacuation?
    Mr. Klein. Well, Senator Clinton, I think you brought up 
some very good points. I think it is very important for the 
Nuclear Regulatory Commission to have credibility among the 
general public. If confirmed, I will certainly work with you to 
make sure that we address the needs and concerns that you have. 
I think it is very important to realize that the Nuclear 
Regulatory Commission should have those practices and policies 
for all of their plants, including Indian Point. So I think it 
is very important that the Nuclear Regulatory Commission have 
policies and procedures to work with all of our constituents, 
and certainly those members of this committee that have 
facilities in their State.
    So what I often times tell people when issues come up, 
there are usually three reasons: communication, communication, 
and communication. So I intend to, if confirmed, meet with 
members of this committee often, meet with all of the public in 
areas for which nuclear plants are located to find out what 
issues are on people's minds, and what we can do to ensure 
their confidence that the Nuclear Regulatory Commission is 
doing their job.
    Senator Clinton. I thank you very much for that response, 
Dr. Klein.
    Mr. Chairman, I think this is an important part of putting 
together any approach to additional nuclear plant sightings. We 
have to be sure that the NRC has the staff, has the expertise, 
has the communication skills, the technical abilities that will 
be necessary to really answer questions and build confidence in 
this approach. So I appreciate Dr. Klein's answers and I look 
forward to working with you.
    Senator Inhofe. Thank you, Senator Clinton. If you have any 
further questions--there are just three of us--feel free to 
take some more time. Would you?
    Senator Clinton. I would appreciate that, Mr. Chairman.
    Senator Inhofe. All right. Go ahead.
    Senator Clinton. Because I wanted also to associate myself 
with the remarks of my colleagues earlier with regard to the 
EPA's proposed changes to the Toxics Release Inventory, and I 
appreciate your response, Ms. O'Neill. As I understand it, the 
EPA is justifying this rule change on the grounds that it will 
be, ``a burden reduction'' for some companies. But based upon 
the numbers that the EPA sent in response to an information 
request from this committee, it appears that the average cost 
saved for businesses is about $2.32 a day for one part of the 
rule and $2.83 for the second part.
    So I think that if you are looking at any cost benefit 
analysis, withholding, hiding you could even say, details of 
thousands of pounds of chemicals, some of which we know are 
carcinogens, from citizens really does undermine what has been 
the trend over the last 30 years, which you very eloquently 
supported, the right to know.
    I feel strongly about this because I am convinced that we, 
in the next decade, will turn our attention much more 
aggressively to understanding the environmental connections 
between illness and exposures. We obviously know that, you 
know, exposure to lead leads to lead poisoning, which has 
terrible impacts on children's IQ and their behavior and so 
much else. We know that we can trace specific problems with 
mercury. We know that.
    But what we don't know is all of the impact of these 
chemicals. We certainly don't know the impact of their 
combinations. I have a particular interest in this because, 
post-9/11, we are seeing the results of the exposures from 
ground zero. When the World Trade Center and the nearby 
buildings collapsed, they released into the atmosphere millions 
and millions of tons of all kinds of contaminants, we know 
asbestos, PCBs, everything you can imagine that was there.
    I think we were really inadequate in our response. The EPA, 
in my view, mislead my constituents by saying that the air was 
safe, and we now have a very high percentage of firefighters, 
police officers, emergency workers, construction workers and 
others who are suffering from severe respirator distress of all 
kinds. In fact, we just had recently an autopsy on a 34-year-
old New York City police detective who died and the New Jersey 
coroner said it was related to the exposures that he 
encountered.
    So obviously, that is an acute example of what I am 
concerned about. But every single day we are exposed to things. 
We have no idea what they are doing to our chromosomal makeup, 
what they are doing to our lungs. I mean, we just don't know.
    So I am heartened by the fact that you agree the public 
does have a right to know, and I hope that you will really take 
a hard look at this step backwards, because we should be moving 
forward and we should figure out a way that we can do that in 
an appropriate risk-based analysis, cost-benefit analysis. But 
let us not withdraw information or withhold and hide 
information, because I think citizens deserve to have it and, 
increasingly, researchers, physicians, public health officials, 
others who are trying to sort out all these chronic diseases we 
are suffering from need to have it as well.
    So could I just one more time hear a commitment to working 
with us to try to figure out what it is we are breathing and 
drinking and being exposed to as we move forward?
    Ms. O'Neill. Senator Clinton, you certainly have my 
commitment, if I am confirmed, to sit down with you and talk to 
you about these issues. I do think they are very important, and 
I actually share your passion for linking environmental data to 
health effects and indicators.
    I personally have been working on some of those issues 
through the National Environmental Information Exchange 
Network, actually sharing environment data with health 
departments at the State level so that we can look at these 
trends for birth defects and things like that. So it is a 
passion of mine as well. I really think that that is what 
science is about, protecting the environment. It also is the 
link to the human health aspect of it, and that is why access 
to data is so important.
    Senator Clinton. Well, I appreciate your passion, because 
you know, I mean, it is something that I feel so strongly 
about. You know, I think we need to get ahead of this because 
you mentioned birth defects, and we don't collect the data in 
the right way. We often collect health data and we look at it 
geographically. We don't look at it occupationally, for 
example.
    We are starting to see some compelling evidence about some 
of the linkages between everyday chemicals that people work 
with and birth defects at a much higher than expected rate 
among the children of those people in various professions and 
occupations. So I really appreciate that and I look forward to 
working with you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Clinton.
    Senator Jeffords, do you have any more questions for either 
of the witnesses?
    Senator Jeffords. Yes.
    Dr. Klein, if you are confirmed, during your service, the 
NRC may proceed to process a permit for the Yucca Mountain 
Project. Doing so would require adding new expertise to the 
Commission that it has not traditionally had. Will you share 
with the committee your thoughts on that issue?
    Mr. Klein. Well, Senator Jeffords, I think any time you 
have a regulatory body like the Nuclear Regulatory Commission, 
it is extremely important to have a very technically qualified 
staff to be able to review and evaluate the issues both for 
Yucca Mountain and for reactor safety. Obviously, from the 
NRC's perspective, they have not received a license application 
from the Department of Energy, but, if confirmed, I would hope 
that the NRC would be able to respond to a timely application 
with the right qualified individuals from the Nuclear 
Regulatory Commission.
    Senator Jeffords. Thank you.
    Ms. O'Neill, when EPA issued its State of the Environmental 
Report in 2003, concerns by the White House prompted the EPA to 
remove the section discussing the risks of global climate 
change. As the President's nominee to head EPA's Office of 
Environmental Information, how would you respond to an effort 
by political leaders to alter data provided by EPA's 
scientists?
    Ms. O'Neill. Senator Jeffords, I appreciate the question. I 
was not involved in developing the first State of the 
Environment Report, as you might know, since I didn't work at 
EPA, but I thought it was a very good first attempt. I really 
can't comment on whether climate change or global warming was 
taken out. I really wasn't involved in that, so I really don't 
have a comment on it. But I can tell you, if I am confirmed as 
the Assistant Administrator for Environmental Information, I 
will support the Agency in making sure that we have the data 
available to report out on indicators such as climate change.
    Senator Jeffords. Thank you.
    Senator Inhofe. OK, well, thank you, Senator Jeffords. 
Thank you, Molly and Dr. Klein, for the time that it has taken 
for you to be here and having your family here. We appreciate 
it very much. It has been an excellent hearing. I would say 
this. Normally, we have a few more people show up, but we have 
a lot of anxiety taking place on the floor right now, and I 
think you understand that.
    So we are adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
       Statement of Molly Ann O'Neill, Nominated to be Assistant 
   Administrator, Office of Environmental Information, Environmental 
                           Protection Agency
    Mr. Chairman, Senator Jeffords, and distinguished members of the 
Committee. It is both a privilege and honor to come before you as 
President Bush's nominee to be the Assistant Administrator for the 
Office of Environmental Information and Chief Information Officer for 
the United States Environmental Protection Agency. I have environmental 
program and information technology experience and also a passion for 
ensuring environmental decisions and policy are based on defensible 
data.
    I come from a strong and supportive family. I am proud to introduce 
my mother, Pam O'Neill, and my aunts and uncles, Chuck and Kate Wall 
and Carey and Amelia Kriz, who are here supporting me today. I would 
also like to take this opportunity to thank the members of my family as 
well as my friends and colleagues for their continuing support.
    All of my professional experience is rooted in supporting 
environmental protection. I began my career collecting environmental 
samples, visited dozens of industrial facilities and reviewed countless 
analytical results. I spent 8 years working with State environmental 
department leaders to improve their business by redesigning their 
business processes and incorporating technology without compromising 
the integrity and outcome of the programs. Over the past 4 years, I 
served as the State Director of the National Environmental Information 
Exchange Network. I know my reputation on developing the partnerships 
in the States, collaborating with EPA, and working with new 
technologies on this project is one of the reasons I am before you 
today.
    In my testimony today, I would like to share my thoughts on 
managing information at the Federal and environmental levels. The 
Federal Government comprises more than 100 agencies and thousands of 
subagencies and programs. The complexity of relationships with other 
levels of government as well as the private, non-profit, and university 
sectors is daunting and system communication barriers continue to 
exist.
    Given these complexities, the challenge is how we use information 
technology to better serve the government and the American citizen. The 
President's Management Agenda, through the advancement of the Federal 
Enterprise Architecture, is the blueprint for how agencies can share 
data better in the future. I believe that CIOs at all levels of 
government must align investments to create system interoperability 
required to provide the American public with government services, 
especially in a crisis. The prospect of Federal Government providing 
leadership on interoperability is one of the most profound actions it 
can pursue in this decade. It will also take strong leadership and a 
willingness to share and adopt best practices, tools, and systems 
between Agencies.
    With respect to environmental data management, I am fortunate that 
EPA has built a strong foundation with three major programs, namely 
Environmental Indicators, the National Environmental Information 
Exchange Network, and Enterprise Architecture.
    The Assistant Administrator for the Office of Environmental 
Information has the responsibility to ensure environmental data is 
sharable and accessible, quality is not compromised, systems are secure 
from today's threats, and data can be turned into meaningful 
information. The foundation has been set and great strides have been 
made. That said, for EPA to be more responsive to the American public's 
questions on the environment, progress needs to continue in all of the 
programs I mentioned.
    If confirmed, I will focus on improving data quality and access to 
environmental information. It is my vision that scientists will make 
decisions based on historical and real time data. And, Government 
Agencies will have access to environmental data in daily processes as 
well as in times of national emergencies.
    I grew up part of a military family. My late father, Lt. Col. 
Vincent O'Neill, was a first generation Irish American who graduated 
from the U.S. Naval Academy and served proudly for more than 20 years 
as an Officer in the United States Marine Corps. He was a highly 
decorated war hero serving two tours on the ground in combat in 
Vietnam. When I became an adult, he shared his belief with me that 
every citizen should perform some type of service to his or her 
country--whether it is military, government, or public. Giving back 
makes this country great. Even though I have worked in the private 
sector for most of my career, I believe in my father's philosophy.
    I am now ready, enthusiastic and committed to this opportunity to 
serve. I am confident that I can utilize my experience and leadership 
skills to advance the Agency in meeting the challenges and 
opportunities that lay ahead. If confirmed, I intend to support the 
President's E-Government agenda, and I will support Administrator 
Johnson in accelerating the pace of environmental protection while 
maintaining our Nation's economic competitiveness. If confirmed, I look 
forward to working with this Committee, Members of Congress, and 
Administrator Johnson to improve the environment and to be responsive 
to information needs.
    Thank you for the opportunity to appear before you today. I am 
happy to take any questions.
                                 ______
                                 
    Responses by Molly O'Neill to Additional Questions from Senator 
                                Jeffords
    Question 1. On January 13, 2006, EPA provided information that I 
requested on the potential implications of EPA's proposed changes to 
the Toxic Release Inventory program. EPA's responses were based on the 
most current information available, the 2003 report year data. Data is 
now available from the 2004 reporting year. As such please update EPA's 
response to my November 10, 2005 letter, using the 2004 reporting year 
data.
    Response. Below you will find the information you requested based 
on the 2004 TRI data that was not available when Ms. O'Neill responded 
to the Committee's earlier questions on May 22, 2006.
    Because the data are extensive, we are providing a very short 
summary paragraph in answer to each of the four questions. (Please 
note: the Excel file attached contains four separate ``sheets''--one 
for each of the four questions posed that totals 500 pages in length.)
    Assuming these analyses are intended to project the impacts of the 
proposed rule issued on October 4, 2005, please be aware that EPA 
cannot predict such impacts with absolute certainty because the 
proposal did not affect the general 1-million-pound limit on 
manufacture, process, or use of the chemical imposed for those who use 
Form A. This information is not reported to EPA, and so we are unable 
to predict whether a given facility meets the criterion. Further, 
experience has shown that many facilities that are eligible for Form A 
choose instead to use Form R for various reasons.
    For ease of reference, please note: The enclosed CD-ROM labeled 
Molly O'Neill Confirmation QFR, contains several data files. Within the 
file titled ``Jeffords Update with 2004 TRI Data'' there are four 
tables. Each table corresponds to one of the questions posed below. 
``Table 1--Additional Facilities that could have used Form A if 
proposed rule were in affect'' responds to Question 1. Table 2--
``Facilities that Reported Releases of TRI Chemicals Classified as 
known or probable Carcinogens in IRIS or NTP 11th Report on 
Carcinogens'' responds to Question 2. ``Table 3--Facilities Report of 
at least one PBT chemical with total annual reportable quantities <500 
lbs., but no releases'' responds to Question 3. Table 4--``500 pounds 
but <5000 lbs. production related waste for 2004; greater than reported 
for the same chemical for 2000'', responds to Question 4. [The CD-ROM 
is retained in Committee's file.]
    (1) Request: A state-by-state list of the facilities that reported 
releases of at least one chemical between 500 and 4,999 pounds in 
production-related waste in 2004, and their TRI releases, by chemical, 
to each environmental medium.
    The requested list on Table 1, under Jeffords Update with 2004 TRI 
Data. For 2004, 6,284 facilities filed 11,707 Form R reports for 
approximately 294 individual TRI chemicals or chemicals listed in TRI 
chemical categories (e.g., chromium compounds) that reported >500 
pounds, but 5,000 pounds of production-related waste.
    (Note: Persistent, Bioaccumulative, and Toxic (PBT) chemicals are 
not included in the attached analysis for this request since the 
proposed regulation requires that PBT chemicals have less than 500 
pounds of production-related waste in addition to having zero releases 
to change from Form R to Form A reports.)
    (2) Request: Of the facilities listed in response to question 1, a 
state-by-state list of any facilities that reported releases of 
chemicals that are classified as known or probable (likely) carcinogens 
in EPA's Integrated Risk Information System or the U.S. Department of 
Health and Human Services National Toxicology Program's Eleventh Report 
on Carcinogens.
    Of the 6,284 individual facilities and approximately 294 chemicals 
identified under Request 1 above, 1,360 of these facilities (about 22 
percent) filed a total of 1,517 Form R reports for 56 individual TRI 
chemicals or chemicals belonging to a TRI chemical category that are 
currently classified as known or probable (likely) carcinogens in 
either EPA's Integrated Risk Information System (IRIS) database or the 
U.S. Department of Health and Human Services National Toxicology 
Program's Eleventh Report on Carcinogens. The full results of the 
analysis are presented in Table 2.
    (3) Request: A state-by-state list of facilities that reported at 
least one chemical of up to 500 pounds of persistent, bioaccumulative 
production-related waste in 2004, and their TRI releases, by chemical, 
to each environmental medium.
    For 2004, 1,809 facilities (less than 9 percent of all facilities 
that filed Form R reports in 2004) filed 2,394 Form R Reports for at 
least one TRI-listed PBT chemical (other than dioxin or a dioxin-like 
compound) for which there were no releases to air, land or water, and 
for which quantities in production-related waste (i.e., quantities 
recycled, used for energy recovery, or treated for destruction) were 
500 pounds or less. The results of this analysis are presented in Table 
3 of the attached file.
    (Note: EPA analyzed only those reports that showed 0 pounds of 
``releases and other disposal'' and 500 pounds or less of ``other waste 
management''; i.e., quantities recycled, used for energy recovery, or 
treated for destruction, in order to provide results consistent with 
the regulatory proposal, which would require zero releases for PBT 
chemical reports to be submitted on Form A rather than Form R. In 
addition, the analysis does not include dioxin and dioxin-like 
compounds because they are excluded from the changes in the proposed 
rule.)
    (4) Request: A state-by-state list of facilities that reported at 
least one TRI-tracked chemical between 500 and 4,999 pounds in 
production related waste in 2004 at greater quantities than the company 
reported in the 2000 TRI. Please indicate the percentage increase.
    Of the 23,675 individual facilities that filed at least one report 
(Form R or Form A) to EPA for the 2004 reporting year, 2,284 (about 10 
percent) reported quantities between 500 and 5,000 pounds in total 
production related waste for at least one TRI-listed chemical that were 
greater than the quantities that the same facilities reported for the 
same chemicals for reporting year 2000. The detailed results, including 
the percentage increase of these quantities, are presented in Table 4 
of the attached file.
    Total production related waste consists of quantities disposed of, 
or otherwise released into the environment; recycled; used for energy 
recovery; or treated for destruction. While these facilities reported 
increases in total production related waste from 2000 to 2004, these 
increases do not necessarily mean increases in environmental releases 
of TRI chemicals--they could also be attributed to increases in 
quantities recycled, used for energy recovery, or treated for 
destruction.
    (Note: The analysis does not include PBT chemicals, because PBT 
chemicals would be ineligible to switch to Form A unless the report 
showed zero pounds of releases and total production related waste was 
less than 500 pounds.)

    Question 2a. The Toxic Release Inventory program includes data on 
toxic releases that are not related to production activities, such as 
accidents, spills or periodic activities like maintenance or equipment 
rebuilding (currently reported as ``non-production toxic waste''). Is 
this correct?
    Response. Yes, the TRI information includes quantities (from 
Section 8.8 of the TRI Form R) that shows the quantity released to the 
environment as a result of remedial actions, catastrophic events, or 
one time events not associated with production processes.

    Question 2b. If EPA's TRI proposal is promulgated as a final rule, 
would industrial facilities still disclose the same amount of 
information on releases of non-production waste?
    Response. If EPA's proposal of October 4, 2005 is promulgated as a 
final rule, facilities would continue to provide this information on 
Form R. In that proposal, EPA specifically asked for comment on whether 
the Section 8.8 amounts should count towards the amount used to 
determine eligibility for Form A. The Agency is considering comments on 
that issue and will make a decision as part of the final rule.

    Question 2c. The Toxic Release Inventory program includes data on 
toxic releases that are not related to production activities, such as 
accidents, spills or periodic activities like maintenance or equipment 
rebuilding (currently reported as ``non-production toxic waste''). 
Please provide information regarding the number of facilities, by 
state, that reported releases of non-production toxic waste and the 
chemicals and volumes involved, using data from the most recent 
reporting available (2004 data).
    Response. Please find on the CD-ROM the document titled ``Jeffords 
Facilities Reporting Non-Production Waste.'' [The CD-ROM is retained in 
committee's file.]

    Question 3. Aside from the TRI database, are there other 
centralized, publicly accessible national databases that contain 
information on annual toxic releases? If so, are these databases 
comparable in scope and specificity? Please explain any differences.
    Response. EPA maintains several data systems that contain some 
information on releases of toxic chemicals. The various data systems 
vary in terms of scope of chemicals covered and frequency of reporting.
    EPA has provided a chart that summarizes the various systems and 
their attributes:

                                         Release and Transfer Databases
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Database........................  Toxics Release      National Emissions  Permit Compliance   Biennial Hazardous
                                   Inventory (TRI).    Inventory (NEI).    System (PCS).       Waste Report (BR)

Type of information.............  Release and waste   Release             Release             Waste generation
                                   management data.    (emissions) data.   (discharge) data.   and management
                                                                                               data

Media...........................  Air, land, water..  Air...............  Water.............  Land (direct
                                                                                               measures only
                                                                                               available for
                                                                                               wastes disposed
                                                                                               of in landfills)

Reporting Frequency.............  Annually..........  Every 3 years       Varies (monthly,    Biennially
                                                       (triennially).      quarterly, or
                                                                           annually).

Sources of data.................  Facilities covered  Various sources:    Facilities          Individual
                                   under EPCRA         mostly estimates    regulated by        generation sites
                                   Section 313.        from state and      NPDES under the     and TSDFs
                                                       local agencies;     Clean Water Act.    regulated under
                                                       TRI is one source.                      RCRA Sections
                                                                                               3002 and 3004
                                                                                               (large generators
                                                                                               only)

Basis for estimates.............  Emissions factors,  Emissions factors,  Monitoring results  Hazardous waste
                                   mass balance        mass balance        are submitted by    manifest forms
                                   calculations,       calculations,       facilities to the   and operating
                                   engineering         monitoring data.    permitting          records.
                                   estimates,                              authority in
                                   monitoring data.                        discharge
                                                                           monitoring
                                                                           reports.

Chemical coverage/thresholds....  666 toxic           All criteria air    Pollutants of       Reporting by
                                   chemicals and       pollutants (CAPS)   three different     ``wastestreams''
                                   chemical            and their           types: five         consisting of one
                                   categories;         precursors and      conventional, 126   or more RCRA
                                   Manufacturing:      all hazardous air   priority toxic      hazardous waste
                                   25,000 lbs./yr.;    pollutants          pollutants, and     codes (565 waste
                                   Processing:         (HAPs); about 520   non-conventional    codes in all,
                                   25,000 lbs./yr.;    chemical            pollutants          some
                                   Otherwise use:      compounds in all.   (pollutants         corresponding to
                                   10,000 lbs./yr.;                        cannot always be    chemicals, some
                                   lower thresholds                        mapped to           not)
                                   for PBT chemicals.                      specific
                                                                           chemicals).

Industry coverage...............  Only certain SIC    All major           Any point source    Large quantity
                                   codes are           industrial          discharging a       generators
                                   covered,            sources and         pollutant into      (LQGs)\1\ and
                                   facilities must     nonpoint sources.   waters of the       permitted
                                   have >10 FTEs.                          United States.      treatment,
                                                                                               storage and
                                                                                               disposal
                                                                                               facilities
                                                                                               (TSDFs)

Accessibility...................  Available on the    Data files are      Available on the    BR data files
                                   Internet through    available on        Internet through    available on
                                   EPA's Envirofacts   EPA's Emissions     EPA's Envirofacts   EPA's FTP
                                   and TRI Explorer,   Inventory Web       and ECHO systems.   Internet server;
                                   as well as TOXNET   page and can be                         National Biennial
                                   and RTKNET.         imported into any                       Reports available
                                                       database program.                       on EPA's
                                                                                               hazardous waste
                                                                                               pages
----------------------------------------------------------------------------------------------------------------
LQGs: generate in any single calendar month >1000 kg of RCRA hazardous waste, >1 kg of acute hazardous waste, or
  >100 kg of spill cleanup material contaminated with acute hazardous waste


    Question 4. Please provide a list of each chemical included in the 
TRI program that is also included in EPA's Hazardous Air Pollutant 
program. Of these chemicals, please provide a list of any chemical that 
EPA believes may be a concern to human health or the environment when 
released by a facility at volumes under 5,000 pounds annually.
    Response. Please find on the CD-ROM document titled ``Jeffords HAPS 
that are TRI Chemicals.'' [The referenced document follows:]
[GRAPHIC] [TIFF OMITTED] T2278.001

[GRAPHIC] [TIFF OMITTED] T2278.002

[GRAPHIC] [TIFF OMITTED] T2278.003

[GRAPHIC] [TIFF OMITTED] T2278.004

[GRAPHIC] [TIFF OMITTED] T2278.005

    Question 5. EPA has described its TRI proposal as a burden 
reduction initiative. Yet small businesses that have less than 10 
employees are already exempt from the TRI program. In addition, 
reporting companies would still need to calculate their emissions to 
determine if they qualify for the proposed exemption. Using EPA's 
estimates provided on January 13, 2006, facilities eligible for this 
burden reduction would save less than $2.50 a day. Isn't it worth the 
cost of a slice of pizza to empower communities with information about 
toxic releases in their neighborhood?
    Response. I am a firm believer in the concept of making information 
available to the public so that they can make informed decisions about 
their daily lives where they live, work and play. I believe that right-
to-know and burden reduction are not mutually exclusive. If I am 
confirmed by the Senate, I would be happy to work with the Senator and 
the Committee to discuss this proposed action in greater detail.

    Question 6a. There have been increasing complaints in recent years 
that EPA is denying Freedom of Information Act (FOIA) fee waivers from 
a range of public interest organizations that previously received such 
fee waivers routinely. Has EPA's policy or implementation of FOIA fee 
waivers changed in recent years?
    Response. The Agency informs me that EPA has not changed its policy 
concerning the granting of fee waivers. The Agency is following 
established EPA FOIA regulations, the Department of Justice guidance on 
fee waivers, the Office of Management and Budget requirements that 
Federal Agencies should collect fees when appropriate, (52 Fed Reg. 
1002 (March 27, 1987)) and applicable case law. EPA grants all fee 
waivers that meet the criteria set out in these rules. In making fee 
waiver determinations, a Federal Agency must look at the facts 
presented by the requester with each individual request and make a 
determination on a case-by-case basis.
    EPA has informed me that it has made changes in the Agency's 
process for reviewing fee waiver requests over the last several years. 
First, all fee waiver decisions at headquarters are now made by the 
National FOIA Staff and approved by the Agency FOIA Officer in 
consultation with the U.S. Department of Justice, when appropriate. EPA 
centralized its fee waiver decisions as a means of bringing more 
consistency to the process. Second, the office with national 
responsibility for FOIA responses and fee waivers is now focused on 
consistently ensuring that each requestor provide sufficient 
information to meet all the criteria for a fee waiver. As a result, fee 
waiver decisions are made objectively by knowledgeable staff based 
solely on information provided by the requester to justify the request 
for a fee waiver.
    Question 6b. There have been increasing complaints in recent years 
that EPA is denying Freedom of Information Act (FOIA) fee waivers from 
a range of public interest organizations that previously received such 
fee waivers routinely. For each of the last 10 years, please provide a 
breakdown of how many fee waiver requests were received and how many 
were granted.
    Response.


----------------------------------------------------------------------------------------------------------------
                                     Number of Fee
          Year\1\ (CY)              Waiver Requests         Grants              Denials        No fees assessed
----------------------------------------------------------------------------------------------------------------
2006\2\.........................                152                  47                   4                 101
2005............................                580                 199                 187                 194
2004............................                511                 335                 162                  14
2003............................                647                 159                 475                  13
2002............................                433                 149                 278                   6
2001............................                626
2000............................                595
1999............................                598
1998............................                576
1997............................                480
1996............................                448
----------------------------------------------------------------------------------------------------------------
\1\Prior to 2002, the system used to track Agency FOIA requests did not record final disposition of requests for
  fee waivers.
\2\January 1, 2006--May 5, 2006.


    Question 7. In response to my question on the future of the EPA 
Library Network, you emphasized your belief in internet technology as a 
means of sharing environmental information. In many rural parts of the 
country, however, including my home State of Vermont, high-speed 
internet access and basic computer technology is not always readily 
available. If confirmed, what steps will you take to guarantee the 
right of all Americans to access public information and to increase 
opportunities to do so?
    Response. I am committed to ensuring that all citizens have access 
to public information from EPA. One way the public can access EPA 
information is through their local or university libraries. I have been 
informed by EPA that its Library plan will include a commitment to 
working with local and university libraries to provide interlibrary 
loan services to the public. If confirmed, I will work to help ensure 
that local and university libraries have the information and tools 
needed to search EPA's Online Library System for information sources 
and the means to request information via interlibrary loans. In 
addition, EPA can work with librarians to teach them how to navigate 
the EPA Web site to find information electronically far their local 
constituents.

    Question 8a. Across the country, communities in the vicinity of the 
high risk chemical facilities utilize Risk Management Plans mandated by 
the Clean Air Act to prepare for and act in response to accidents and 
other emergency situations. These plans must be publicly available 
under law and are often obtained at regional EPA libraries. 
Furthermore, a 2004 EPA report (EPA 260-R-04-001) concludes in the 
first sentence of its Executive Summary, ``The Environmental Protection 
Agency's network of regional libraries provides substantial value to 
the Agency, its professional staff, stakeholders, and the public. 
Calculated conservatively, the benefit-to-cost ratio for EPA library 
services ranges between 2:1 and 5.7:1.''
    If regional EPA libraries close or become otherwise unavailable to 
supply these documents, what actions do you believe the Office of 
Environmental Information should take in order to continue to uphold 
community right-to-know protections under the Clean Air Act and other 
environmental reporting statutes?
    Response. I have been informed by EPA that only three Regions' Risk 
Management Plan (RMP)/Offsite Consequence Analysis (OCA) reading rooms 
are located in Regional library space that may be affected by the 
library budget reduction. If I am confirmed, I will work with the 
Assistant Administrator for the Office of Solid Waste and Emergency 
Response to ensure the rooms are relocated and the public continues to 
have access to the information they need.

    Question 8b. Please provide a copy of the Agency's short- and long-
term plans for closing EPA libraries and maintaining the same quality 
of access through alternative means, including budget and 
digitalization, storage and document dissemination. If the 
aforementioned information does not currently exist, will you commit to 
developing a long-term information services plan within the next 3 
months for use by the Committee?
    Response. In response to important trends, the Environmental 
Protection Agency's budget request for FY 2007 includes a proposed $2 
million reduction to OEI's library budget. Reductions will affect the 
Headquarters and Regional libraries, which comprise 11 of the 26 
libraries in the EPA library network. First, for the past several years 
there have been fewer and fewer people physically visiting the EPA 
libraries. Second, during this same period more and more researchers 
are finding the resources the need on-line, and accessing them through 
desktop services. Recognizing these trends, EPA has been looking at 
ways to more efficiently and effectively deliver our library services. 
The proposed solution is entirely consistent with the Agency's long-
standing policy of using new computer technology to provide services at 
less expense, and our experience in creating ``enterprise solutions'' 
to meet other needs and reduce unnecessary redundancy. EPA commits to 
provide information on the proposed solutions when available.
    OEI has established a senior level Library Steering Committee 
comprised of representatives from Headquarters offices and a subset of 
the Assistant Regional Administrators to develop and oversee the 
transition to a new model of library services.
    One area in which EPA plans to achieve greater efficiencies in its 
library program is through streamlining some of its physical library 
collections and moving toward a new model that is focused on providing 
delivery of library services electronically and leveraging services 
offered by other libraries in the network, such as the EPA libraries in 
Research Triangle Park, NC and Cincinnati, OH.
    The physical library space at Headquarters and various other 
locations may be closed and walk-in services reduced. Staff in 
Headquarters and affected regions will be able to obtain services via 
electronic means from other libraries in the EPA Network. EPA employees 
will continue to have online access to key journals and publications 
from their desktops, and they will have access to interlibrary loan and 
reference/research services. In addition, the Online Library System 
(OLS), the catalog of all the holdings in EPA's libraries, will 
continue to be available to staff.
    EPA is committed to providing the public with access to 
environmental information. The public will also continue to have access 
to the Online Library System (OLS), the catalog of all the holdings in 
EPA's libraries, and will be able to obtain over 13,000 unique EPA 
documents (titles) in electronic format through the EPA National 
Environmental Publications Internet site and over 4,000 EPA titles in 
hardcopy, free of charge, through the National Service Center for 
Environmental Publications (NSCEP). In addition, the public will 
continue to be able to access EPA publications via interlibrary loan by 
working with a requesting library.
    The goal of the EPA's plan is to ensure a smooth transition to a 
new model of library services.

    Question 9a. A January 2004 EPA report entitled, ``The Business 
Case for Information Services'' notes, ``The Agency is shifting away 
from producing printed materials, yet lacks a controlled repository of 
either paper or electronic documents.''
    In your opinion, what steps should the Agency take to safeguard 
documents and other materials for future use, both paper and 
electronic, especially those which are unique?
    Response. I have been informed by EPA that its library plan will 
include information on steps for safeguarding unique EPA documents. In 
addition, I have learned that EPA is establishing some repository 
libraries to house documents from libraries that are closing. The 
repositories will ensure that documents from libraries that are closing 
will be maintained and available for interlibrary loan.

    Question 9b. In terms of the number of items, what is the current 
makeup of EPA's estimated backlog for digitizing important paper-only 
documents?
    Response. EPA currently has 13,000 documents digitized. EPA 
Headquarters is working with the Regions to identify the estimated 
number of unique documents that still need to be digitized.

    Question 9c. How do you plan to manage this backlog?
    Response. I understand EPA's library plan will include guidelines 
on prioritizing which unique documents should be digitized first.

    Question 10. What is EPA's policy on preserving electronic 
information? How is the current policy sufficient to make certain that 
all information that EPA creates can reasonably be made available as 
required by law?
    Response. I have learned from EPA that in April of this year the 
Agency issued a new Records Management Policy. This Policy establishes 
principles, responsibilities and requirements for managing EPA's 
records, including records in electronic format, to ensure that the 
Agency is in compliance with Federal laws and regulations, EPA policies 
and best practices for managing records. The Policy requires that all 
electronic records, including electronic mail records, be maintained in 
the enterprise-wide electronic content management system when it 
becomes available. The Policy also requires that electronic records be 
printed and filed in a paper recordkeeping system until an enterprise-
wide electronic content management system (ECMS) is available.
    I have also learned from EPA that they are going to begin the 
development of an information access policy to ensure that any new 
documents produced in hard copy are also produced in electronic format. 
The policy will also establish guidelines for ensuring that all new 
electronic documents are catalogued in EPA's Online Library System and 
made available to the public.

    Question 11. How many full-time employees work for the Assistant 
Administrator for the Office of Environmental Information? What is the 
approximate annual budget for the Office of Environmental Information? 
How has your experience prepared you to manage this office as the 
Assistant Administrator?
    Response. The Office of Environmental Information (OEI) consists of 
approximately 400 employees. The FY 06 operating plan is approximately 
$277 million.
    As to my experience in preparation for leading the Office of 
Environmental Information, I have 15 years of resource management 
experience in the private and non-profit sectors. This includes 
planning, development, allocation, and management of budgets, 
infrastructure and personnel. I have worked closely with senior 
regulatory managers to incorporate technology to serve as a tool to 
improve business processes. My technical experience coupled with my 
management experience has helped prepare me to manage the Office of 
Environmental Information.
                                 ______
                                 
 Response by Molly O'Neill to an Additional Question from Senator Thune
     Question. The office to which the President has nominated you is 
the Agency's lead in moving towards a greater use of electronic data 
collection. As you may be aware, the largest continuous paperwork 
burden that the EPA places on those who are regulated under the 
Resource Conservation and Recovery Act (RCRA), is the hazardous waste 
manifest system that tracks wastes from ``cradle to grave''. I am 
working with members of this Committee in a bi-partisan manner to draft 
legislation to authorize regulated entities to submit electronic 
manifests as a way to provide more transparency and efficiency when it 
comes to the tracking of hazardous waste. As a staff person at the 
Association representing hazardous waste officials, I understand you 
are familiar with the effort to authorize electronic manifests. Can we 
look to your office to vigorously support our efforts to establish an 
electronic manifest system?
    Response. The Agency informs me that the electronic manifest 
project falls under the jurisdiction of the Office of Solid Waste and 
Emergency Response. I am, however, a firm believer in using technology 
solutions to better achieve mission goals. If I am confirmed as 
Assistant Administrator and Chief Information Officer, the Office of 
Environmental Information will play a key partnership role to enable 
this important project to be both a mission and technical success.
                                 ______
                                 
 Responses by Molly O'Neill to Additional Questions from Senator Obama
    Question 1. Under EPA's proposal, one environmental group estimates 
that Illinois will have 207 facilities that no longer have to report 
detailed pollutant information. Is it your belief that members of those 
communities no longer have a right to know what is being discharged 
into their communities?
    Response. I bring a strong personal commitment to providing the 
broadest possible access to information that may impact our 
communities. If confirmed, I will work with you and the Committee to 
balance burden reduction while continuing to provide the public with 
information about toxics in their communities.

    Question 2a. EPA's proposal includes exempting facilities that emit 
less than 500 pounds of persistent bioaccumulative toxins annually from 
reporting requirements. Are lead and mercury included among those 
persistent bioaccumulative toxins that will be now exempted?
    Response. As I understand what EPA proposed on October 4, 2005, 
lead and mercury would be eligible to use a ``short form'' (Form A) in 
lieu of the longer Form R, under certain conditions. First, facilities 
wanting to use Form A could have no releases of lead or mercury (or any 
persistent, bioaccumulative or toxic chemical) to the environment. 
Second, the facility could conduct treatment or recycling, on or 
offsite, in amounts not to exceed 500 lbs.

    Question 2b. You have been working with the States in information 
management for the past 4 years. Do you think State environmental and 
health officials would support giving up access to data on such 
persistent environmental toxins in their communities?
    Response. It is my understanding that several State officials did 
comment on the proposed rule. If confirmed, I would carefully consider 
all of the public comments, including comments from State environmental 
and health officials. In general, I believe the State environmental and 
health officials can understand the Agency's desire to balance burden 
reduction with continuing to provide the public with information about 
toxics in their communities.

    Question 3. EPA has proposed reducing TRI reporting requirements 
and closing down EPA libraries, beginning with EPA's library in 
Chicago. If confirmed, will you work with members of this Committee to 
ensure that all Americans have access to pertinent EPA data? If 
confirmed, will you work with members of this Committee to examine the 
full implications of EPA's proposal to reduce TRI reporting?
    Response. If confirmed I will certainly work with the Committee or 
any individual Senator to discuss access to EPA data as well as the 
proposed TRI rule.

    Question 4a. At a recent briefing given to Environment and Public 
Works Committee members' staff on the 2004 Toxic Release Inventory 
(TRI) data, the EPA staff indicated that ``lead and lead compounds 
disposal or other releases increased by 25 million pounds or 6 percent 
from 2001 to 2004'' largely because the metal mining sector had an 
increase of 10 percent during that period. It is not clear why that 
increase has occurred. Are these facilities directly mining for lead or 
is the lead a by-product of other mining activities?
    Response. EPA advises that over 8,000 facilities reported lead 
releases in 2004. Just 12 facilities reported under SIC code 1031: Lead 
and Zinc Ores Metal Mining: EPA cannot say with certainty whether there 
is primary mining of lead at these facilities, but believes that the 
vast majority of lead releases are associated with mining for other 
metals, including gold.

    Question 4b. Where were the 25 million pounds disposed?
    Response. The 25 million pounds are generally contained as trace 
elements in waste rock and were disposed of mainly on-site at (near the 
area from which the rock was originally extracted) metal mining 
facilities, primarily in surface impoundments or other land disposal.

    Question 4c. What are the risks of exposure for children and women 
of childbearing age from the different disposal methods used for mined 
lead?
    If children and women of childbearing age are facing an increased 
risk of exposure due to increased mining activities, are there 
additional steps EPA can take to reduce that risk?
    Response. The fate and transport, including exposure risk; of 
environmental contaminants is complex and can only be rigorously 
assessed on a site-specific basis. However, in general, mining is 
conducted in remote areas and waste rock is redeposited near the area 
where it was mined. If confirmed, I will work with you and the 
Committee to examine these issues.

    Question 5. The briefing materials indicate that 189 million pounds 
of lead were recycled offsite by electronic/electrical equipment 
manufacturers. How does that statistic compare with the most recent 
estimates of lead sold nationwide in electronics and electrical 
components annually? The EPA briefing indicated that total production-
related waste managed by the electronic/electrical equipment sector 
increased by 14 percent between 2003 and 2004, reversing a downward 
trend. Please address why that trend may have changed and are there 
steps EPA can take to increase lead component recycling in electronics?
    Response. EPA noted in its briefing materials that of 1.2 billion 
pounds of lead total production-related waste from all sources, about 
63 percent was recycled in 2004. Total production-related waste for 
lead decreased by less than 1 percent from 2003 to 2004, and decreased 
about 2 percent from 2001 to 2004. These are very complex questions 
which will require discussion across the Agency. If confirmed, I will 
work with the Committee to examine these issues.
[GRAPHIC] [TIFF OMITTED] T2278.006

[GRAPHIC] [TIFF OMITTED] T2278.007

[GRAPHIC] [TIFF OMITTED] T2278.008

[GRAPHIC] [TIFF OMITTED] T2278.009

[GRAPHIC] [TIFF OMITTED] T2278.010

[GRAPHIC] [TIFF OMITTED] T2278.011

[GRAPHIC] [TIFF OMITTED] T2278.012

[GRAPHIC] [TIFF OMITTED] T2278.013

[GRAPHIC] [TIFF OMITTED] T2278.014

[GRAPHIC] [TIFF OMITTED] T2278.015

[GRAPHIC] [TIFF OMITTED] T2278.016

[GRAPHIC] [TIFF OMITTED] T2278.017

[GRAPHIC] [TIFF OMITTED] T2278.018

[GRAPHIC] [TIFF OMITTED] T2278.019

[GRAPHIC] [TIFF OMITTED] T2278.020

[GRAPHIC] [TIFF OMITTED] T2278.021

  Statement of Dale E. Klein, Nominated to be a Member of the Nuclear 
                         Regulatory Commission
    Mr. Chairman, Ranking Member Jeffords and Committee Members, it is 
an honor to appear before you today as President Bush's nominee for the 
Nuclear Regulatory Commission (NRC).
    I want to acknowledge the presence of my wife, Becky.
    The current Commissioners have laid substantial groundwork to help 
prepare the NRC for the challenges it faces in the coming years. 
Challenge is the appropriate word. The next several years will be 
perhaps the most significant in decades in terms of regulating the 
civilian use of nuclear materials.
    This challenge is all the more important when viewed through the 
lens of what is happening in the energy arena. The global energy supply 
can affect both the U.S. economy and U.S. interests. Oil and natural 
gas prices are at levels never before seen. Domestic and global demand 
continues to rise. There are forecasts that U.S. electricity demand 
will rise by 50 percent in just over two decades. Clearly, nuclear 
energy has a role to play in meeting that demand.
    The charge of the NRC is to ``license and regulate the Nation's 
civilian use of byproduct, source, and special nuclear materials to 
ensure adequate protection of public health and safety, promote the 
common defense and security, and protect the environment.''
    In meeting that mission, regulatory stability is a crucial element. 
The NRC must clearly define the requirements. It must respond in a 
timely manner. I believe the groundwork laid by the Commission will be 
the key to providing the necessary regulatory stability.
    The challenges ahead for the NRC are substantial: dealing with the 
impending bow wave of applications for new reactors, overseeing their 
construction, and simultaneously ensuring that existing plants receive 
the high standard of regulatory oversight set by the NRC. The already 
high security of nuclear facilities must be maintained. And there is 
the challenge to the Agency of dealing with a potential application by 
the Energy Department for a high level waste repository. Both this 
Committee and the Appropriations Committee have been very supportive of 
the Commission. Continued support will be essential to help ensure that 
the licensing process moves smoothly. If confirmed, you have my 
assurance I will work closely with you and the Members of this 
Committee on these issues.
    Ensuring that the current fleet of commercial nuclear powerplants 
receive the proper level of scrutiny during the coming decade--as new 
plants are licensed and built--will require a continued focus by the 
NRC on quality oversight. If confirmed, I can assure you that I intend 
to see that the lessons learned from the past are institutionalized in 
the NRC.
    Mr. Chairman, Members of the Committee, while much of my background 
is technical in nature, I am an experienced administrator who believes 
in milestones and deliverables. My goal is to make sound decisions, 
based on sound science and sound public policy. If confirmed, I look 
forward to working with this Committee and the challenge of being an 
NRC commissioner.
    This concludes my statement. I look forward to your questions.
                                 ______
                                 
 Responses by Dale Klein to Additional Questions from Senator Jeffords
    Question 1. In April 2005, the National Research Council, part of 
the National Academy of Sciences, released a report on the security of 
spent fuel storage at nuclear plants. I would like your views about how 
you will work to address a number of issues it raises.
    What, in your view, are the next steps that the Commission should 
undertake to provide additional guidance to our Nation's nuclear 
facilities on dealing with cooling accidents?
    Response. While I am not familiar with the details of that report, 
my background as a scientist and an engineer will guide me as I study 
ways to further protect nuclear facilities in the event of accidents. 
If confirmed, I intend to work with this Committee closely as we 
identify further improvements.

    Question 2. The last chapter of the National Research Council 
report suggests that the Commission's controls on information may be 
inhibiting security improvements. Representatives of the study team, 
and industry were frustrated by the Commission's restrictions on 
sharing data that could help with ``early actions to address identified 
vulnerabilities.''
    Will you describe, for the Committee, your general view about both 
public and utility access to information regarding the security of 
nuclear material?
    Response. The NRC is an Agency that makes available to the public 
thousands of documents every year. Public access to information is key 
to maintaining confidence in the workings of the government. However, 
in addition to public access, it is imperative that security 
information is protected using the need-to-know standard. As a Nation, 
we need to be mindful that guidelines are established for a reason and 
that terrorists should not have access to security information.

    Question 3. Would you share with the Committee your views about the 
type and scope of peer review you believe is needed when studies show 
that nuclear materials at powerplants or other facilities licensed by 
the NRC may be vulnerable to terrorist attacks?
    Response. Protecting nuclear facilities is an imperative. If 
confirmed, security will be a top priority for me. I look forward to 
working with all relevant experts to ensure nuclear facilities are safe 
and secure.
                                 ______
                                 
 Responses by Dale Klein to Additional Questions from Senator Voinovich
    Question 1. What do you consider to be the most important 
priorities and challenges facing the Agency as you take the helm at the 
NRC?
    Response. If confirmed, I believe my most important priority and 
challenge will be the continued safe operation of the existing nuclear 
plants and other licensed facilities while meeting the expected new 
license applications. Secondly, my next most important priority will be 
to ensure regulatory stability. In order to do this, the NRC should 
establish clear requirements and process applications in a timely 
manner.

    Question 2. During your tenure in this appointed position, what key 
performance goals do you want to accomplish, and how would this 
Committee know whether you have accomplished them?
    Response. My key performance goals will be safety and timely 
response metrics. I look forward to reviewing the Agency's strategic 
plans and goals to ensure that the performance standards are 
appropriate. After these performance metrics are established, it is 
important to measure the results and to communicate these results to 
the Committee.

    Question 3. Going forward, NRC's relationship with other Federal 
Agencies and State/local governments will be absolutely critical in 
accomplishing its mission. Please describe your thoughts and plans on 
how you intend to work on this issue.
    Response. In my current assignment as the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs, I have interfaced with several Federal Agencies and State/
local governments. The best way to accomplish this mission is through 
good communications, stating clearly what is needed and being 
responsive to the needs of the other Federal Agencies and State/local 
governments.

    Question 4. One of the things that I have highlighted is the need 
for the NRC to improve and be more proactive in its public relations 
efforts. I would like to get your thoughts on how a regulatory agency 
such as NRC can improve in this area.
    Response. Public relations and public education are extremely 
important. It is not the role of the NRC to be an advocate for nuclear 
technology, but the NRC should not be an impediment. The NRC needs to 
be a credible source of information and the NRC needs to communicate 
its findings in a clear and understandable manner to all stakeholders. 
If confirmed, I expect to look closely at the number of people at the 
NRC involved in public relations/public education and evaluate what is 
being done and determine if the resources are appropriate. I plan to 
reach out to all constituencies by meeting with a variety of 
stakeholders.

    Question 5. It goes without saying that your relationship with 
Congress will be critical in ensuring success for the Agency. 
Specifically, describe any experience you have in working on a 
bipartisan basis to identify statutory changes that can improve program 
efficiency and effectiveness, as well as in fostering and responding to 
legislative oversight.
    Response. During the last several years as the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs, I worked in a bipartisan way in many areas. This included the 
RRW (Reliable Replacement Warhead), the Chemical and Biological Defense 
Program, and the Chemical Demilitarization Program. If confirmed, I 
expect to have a proactive bipartisan effort with the House and Senate 
staff members, staff Committee members, and elected officials. I am a 
strong advocate for communication. It is important that those involved 
in legislative oversight understand the NRC's programs and it is 
important for the NRC to understand the goals of those involved in 
legislative oversight.

    Question 6. To become a high-performance organization, an agency 
needs senior leaders who are drivers of continuous improvement. As 
Chairman of the NRC, how do you intend to motivate career employees, or 
any employees for that matter, to achieve excellence?
    Response. As an educator, I have been involved in motivating 
students for over 25 years. The same concepts apply to motivating 
employees. Clear goals need to be established by senior management and 
yearly individual performance metrics should be established. Employees 
should be empowered and encouraged to make decisions, to be proactive, 
and to have a strong sense of personal responsibility. If confirmed, 
there are two programs used at DoD that I intend to evaluate their 
applicability at the NRC: Lean Six Sigma for Service and Crucial 
Conversations.

    Question 7. High-performance organizations draw on the strengths of 
employees at all levels and maintain honest two-way communications. 
Based on your experience, how would you assess your Agency's capability 
for two-way communication, and what preliminary ideas do you have to 
promote such communication in your Agency?
    Response. My experience in the past on previous commissions and in 
the university system has well positioned me to promote communications 
to achieve consensus with respect to ideas. The best way to enhance 
honest two-way conversations is by having a system in place that 
encourages such communications. However, equally important as having a 
system is how it is implemented and tracked. All the NRC Commissioners 
need to have an ``open door'' policy for communications, especially the 
Chairman. The NRC staff should always feel that their views are heard 
because, at the working level, the staff are often more knowledgeable 
on issues to be addressed.
                                 ______
                                 
   Responses by Dale Klein to Additional Questions from Senator Boxer
    Question 1. California's San Onofre nuclear plant is in close 
proximity to earthquake faults. If confirmed, what will you do to 
ensure that nuclear facilities are well-protected against earthquakes?
    Response. The NRC has stringent safety requirements involving 
earthquakes at all licensed facilities, and any new facility will be 
required to meet the Agency's strict standards with respect to that 
danger. If confirmed, ensuring the safety of existing and new 
facilities will be a top priority.

    Question 2. A March 2006 report by the Government Accountability 
Office (GAO) concluded that there is considerable room for improvement 
in the NRC's activities to promote nuclear plant security. Do you 
believe that the NRC and nuclear plant owners and operators could do a 
better job ensuring nuclear plant security? What improvements to the 
existing measures do you support?
    Response. The safety and security of all facilities is vital to our 
Nation. Since September 11, 2001, I understand that the NRC and the 
industry have made great strides in increasing security at the 
facilities. Not only do the plant operators and the NRC have a role, I 
believe security is a shared responsibility. Local, State and Federal 
officials all have a role to play in nuclear plant security. If 
confirmed, I look forward to reviewing the security measures taken to 
date.
                                 ______
                                 
   Responses by Dale Klein to Additional Questions from Senator Obama
    Question 1. At the Braidwood facility in Will County, IL, the 
failure to monitor and control the release of radioactive materials 
into the groundwater would appear to be a violation of 10 CFR 50.36a. 
(a) Why has this regulation not been enforced? (b) Does the NRC plan to 
take any actions against Exelon for failure to notify the public of the 
tritium releases in 1998 and 2000? (c) When instances of failure to 
notify the public occur, what processes are in place at NRC to deter 
future occurrence of such instances by licensees?
    Response. While I have not been fully briefed on this matter, I 
believe transparency with the public is key. If confirmed, I will be 
briefed on the inspection report and discuss this matter with all 
involved. I pledge to you that the NRC will provide the appropriate 
oversight on this issue.

    Question 2. If you are confirmed for this position, will you commit 
to supporting mandatory public disclosure of unplanned releases, as I 
have suggested in S. 2348?
    Response. I support early public disclosure even if safety is not 
an issue. I am not fully knowledgeable of the pros and cons of 
mandatory public disclosure. If confirmed, I look forward to working 
closely with you and your staff on this issue.
[GRAPHIC] [TIFF OMITTED] T2278.022

[GRAPHIC] [TIFF OMITTED] T2278.023

[GRAPHIC] [TIFF OMITTED] T2278.024

[GRAPHIC] [TIFF OMITTED] T2278.025

[GRAPHIC] [TIFF OMITTED] T2278.026

[GRAPHIC] [TIFF OMITTED] T2278.027

[GRAPHIC] [TIFF OMITTED] T2278.028

[GRAPHIC] [TIFF OMITTED] T2278.029

[GRAPHIC] [TIFF OMITTED] T2278.030

[GRAPHIC] [TIFF OMITTED] T2278.031

[GRAPHIC] [TIFF OMITTED] T2278.032

[GRAPHIC] [TIFF OMITTED] T2278.033

[GRAPHIC] [TIFF OMITTED] T2278.034

[GRAPHIC] [TIFF OMITTED] T2278.035

[GRAPHIC] [TIFF OMITTED] T2278.036

[GRAPHIC] [TIFF OMITTED] T2278.037

[GRAPHIC] [TIFF OMITTED] T2278.038

[GRAPHIC] [TIFF OMITTED] T2278.039

[GRAPHIC] [TIFF OMITTED] T2278.040

[GRAPHIC] [TIFF OMITTED] T2278.041

[GRAPHIC] [TIFF OMITTED] T2278.042

[GRAPHIC] [TIFF OMITTED] T2278.043

[GRAPHIC] [TIFF OMITTED] T2278.044

[GRAPHIC] [TIFF OMITTED] T2278.045

[GRAPHIC] [TIFF OMITTED] T2278.046

[GRAPHIC] [TIFF OMITTED] T2278.047

[GRAPHIC] [TIFF OMITTED] T2278.048

[GRAPHIC] [TIFF OMITTED] T2278.049

[GRAPHIC] [TIFF OMITTED] T2278.050

[GRAPHIC] [TIFF OMITTED] T2278.051

[GRAPHIC] [TIFF OMITTED] T2278.052

[GRAPHIC] [TIFF OMITTED] T2278.053

[GRAPHIC] [TIFF OMITTED] T2278.054

[GRAPHIC] [TIFF OMITTED] T2278.055

[GRAPHIC] [TIFF OMITTED] T2278.056

[GRAPHIC] [TIFF OMITTED] T2278.057

[GRAPHIC] [TIFF OMITTED] T2278.058

[GRAPHIC] [TIFF OMITTED] T2278.059

[GRAPHIC] [TIFF OMITTED] T2278.060

[GRAPHIC] [TIFF OMITTED] T2278.061

[GRAPHIC] [TIFF OMITTED] T2278.062

[GRAPHIC] [TIFF OMITTED] T2278.063

[GRAPHIC] [TIFF OMITTED] T2278.064

[GRAPHIC] [TIFF OMITTED] T2278.065

  

                                  <all>
</pre></body></html>
